<html>
<title> - OVERSIGHT OF THE REPORT ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE IN THE 2016 PRESIDENTIAL ELECTION: FORMER SPECIAL COUNSEL ROBERT S. MUELLER, III</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                                                               
OVERSIGHT OF THE REPORT ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE IN 
   THE 2016 PRESIDENTIAL ELECTION: FORMER SPECIAL COUNSEL ROBERT S. 
                              MUELLER, III

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 24, 2019

                               ----------                              

                           Serial No. 116-41

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


         


        Available: http://judiciary.house.gov or www.govinfo.gov
        
        
        
        

OVERSIGHT OF THE REPORT ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE 
  IN THE 2016 PRESIDENTIAL ELECTION: FORMER SPECIAL COUNSEL ROBERT S. 
                              MUELLER, III
                              
                              
                              
                              
                              


 
OVERSIGHT OF THE REPORT ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE 
  IN THE 2016 PRESIDENTIAL ELECTION: FORMER SPECIAL COUNSEL ROBERT S. 
                              MUELLER, III

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2019

                               __________

                           Serial No. 116-41

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         


        Available: http://judiciary.house.gov or www.govinfo.gov
        
        
        
        
        
                                 ______

                 U.S. GOVERNMENT PUBLISHING OFFICE 
 38-243                     WASHINGTON : 2020
        
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washingtqn          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              

                             JULY 24, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

                                WITNESS

Robert S. Mueller, III, Special Counsel, The Special Counsel's 
  Office, The Investigation into Russian Interference in the 2016 
  Presidential Election, May 2017 to May 2019
    Oral Testimony...............................................     5
    Prepared Testimony...........................................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

An article for the record titled ``Robert Mueller: Unmasked'' 
  submitted by the Honorable Louie Gohmert, a Member of Congress 
  from the State of Texas, Committee on the Judiciary............   474
A statement by former federal prosecutors for the record 
  submitted by the Honorable Eric Swalwell, a Member of Congress 
  from the State of California, Committee on the Judiciary.......   546


OVERSIGHT OF THE REPORT ON THE INVESTIGATION INTO RUSSIAN INTERFERENCE 
  IN THE 2016 PRESIDENTIAL ELECTION: FORMER SPECIAL COUNSEL ROBERT S. 
                              MUELLER, III

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 8:32 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Lieu, Raskin, Jayapal, Demings, Correa, 
Scanlon, Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-
Powell, Escobar, Collins, Sensenbrenner, Chabot, Gohmert, 
Jordan, Buck, Ratcliffe, Roby, Gaetz, Johnson of Louisiana, 
Biggs, McClintock, Lesko, Reschenthaler, Cline, Armstrong, and 
Steube.
    Staff Present: Aaron Hiller, Deputy Chief Counsel; Arya 
Hariharan, Deputy Chief Oversight Counsel; David Greengrass, 
Senior Counsel; John Doty, Senior Advisor; Lisette Morton, 
Director Policy, Planning, and Member Services; Madeline 
Strasser, Chief Clerk; Moh Sharma, Member Services and Outreach 
Advisor; Susan Jensen, Parliamentarian/Senior Counsel; Sarah 
Istel, Oversight Counsel; Julian Gerson, Staff Assistant; Will 
Emmons, Professional Staff Member; Brendan Belair, Minority 
Staff Director; Bobby Parmiter, Minority Deputy Staff Director/
Chief Counsel; Jon Ferro, Minority Parliamentarian/General 
Counsel; Carlton David, Minority Chief Oversight Counsel; 
Ashley Callen, Minority Oversight Counsel; Danny Johnson, 
Minority Oversight Counsel; Jake Greenberg, Minority Oversight 
Counsel; and Erica Barker, Minority Chief Legislative Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order. Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to today's hearing on ``Oversight of 
the Report on the Investigation into Russian Interference in 
the 2016 Presidential Election.'' I will now recognize myself 
for a brief opening statement.
    Director Mueller, thank you for being here. I want to say 
just a few words about our themes today: responsibility, 
integrity, and accountability. Your career, for example, is a 
model of responsibility. You are a decorated Marine officer. 
You were awarded a Purple Heart and the Bronze Star for valor 
in Vietnam. You served in senior roles at the Department of 
Justice, and in the immediate aftermath of 9/11, you served as 
director of the FBI.
    Two years ago, you return to public service to lead the 
investigation into Russian interference in the 2016 elections. 
You conducted that investigation with remarkable integrity. For 
22 months, you never commented in public about your work, even 
when you were subjected to repeated and grossly unfair personal 
attacks. Instead, your indictments spoke for you and in 
astonishing detail.
    Over the course of your investigation, you obtained 
criminal indictments against 37 people and entities. You 
secured the conviction of President Trump's campaign chairman, 
his deputy campaign manager, his National Security advisor, and 
his personal lawyer, among others. In the Paul Manafort case 
alone, you recovered as much as $42 million so that the cost of 
your investigation to the taxpayers approaches zero.
    And in your report you offer the country accountability as 
well. In Volume I, you find that the Russian Government 
attacked our 2016 elections, quote, in a sweeping and 
systematic fashion, and that the attacks were designed to 
benefit the Trump campaign.
    Volume II walks us through 10 separate incidents of 
possible obstruction of justice where, in your words, President 
Trump attempted to exert undue influence over your 
investigation. The President's behavior included, and I quote 
from your report, quote, public attacks on the investigation, 
nonpublic efforts to control it, and efforts in both public and 
private to encourage witnesses not to cooperate, close quote.
    Among the most shocking of these incidents, President Trump 
ordered his White House counsel to have you fired and then to 
lie and deny that it had happened. He ordered his former 
campaign manager to convince the recused Attorney General to 
step in and to limit your work, and he attempted to prevent 
witnesses from cooperating with your investigation.
    Although Department policy barred you from indicting the 
President for this conduct, you made clear that he is not 
exonerated. Any other person who acted in this way would have 
been charged with crimes, and in this Nation, not even the 
President is above the law, which brings me to this committee's 
work: responsibility, integrity, and accountability. These are 
the marks by which we who serve on this committee will be 
measured as well.
    Director Mueller, we have a responsibility to address the 
evidence that you have uncovered. You recognize as much when 
you said, quote, the Constitution requires a process other than 
the criminal justice system to formally accuse a sitting 
President of wrongdoing, close quote. That process begins with 
the work of this committee.
    We will follow your example, Director Mueller. We will act 
with integrity. We will follow the facts where they lead. We 
will consider all appropriate remedies. We will make our 
recommendation to the House when our work concludes. We will do 
this work because there must be accountability for the conduct 
described in your report, especially as it relates to the 
President.
    Thank you again, Director Mueller. We look forward to your 
testimony.
    It is now my pleasure to recognize the ranking member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman. And thank you, Mr. 
Mueller, for being here.
    For 2 years leading up to the release of the Mueller report 
and in the 3 months since, Americans were first told what to 
expect and then what to believe. Collusion, we were told, was 
in plain sight, even if the special counsel's team didn't find 
it.
    When Mr. Mueller produced his report and Attorney General 
Barr provided it to every American, we read no American 
conspired with Russia to interfere in our elections but learned 
the depths of Russia's malice toward America.
    We are here to ask serious questions about Mr. Mueller's 
work, and we will do that. After an extended, unhampered 
investigation, today marks an end to Mr. Mueller's involvement 
in an investigation that closed in April. The burden of proof 
for accusations that remain unproven is extremely high and 
especially in light of the special counsel's thoroughness.
    We were told this investigation began as an inquiry into 
whether Russia meddled in our 2016 election. Mr. Mueller, you 
concluded they did. Russians accessed Democrat servers and 
disseminated sensitive information by tricking campaign 
insiders into revealing protected information.
    The investigation also reviewed whether Donald Trump, the 
President, sought Russian assistance as a candidate to win the 
Presidency. Mr. Mueller concluded he did not. His family or 
advisers did not. In fact, the report concludes no one in the 
President's campaign colluded, collaborated, or conspired with 
the Russians.
    The President watched the public narrative surrounding this 
investigation assume his guilt while he knew the extent of his 
innocence. Volume II of Mr. Mueller's report details the 
President's reaction to frustrating investigation where his 
innocence was established early on. The President's attitude 
toward the investigation was understandably negative, yet the 
President did not use his authority to close the investigation. 
He asked his lawyer if Mr. Mueller had conflicts that 
disqualified Mr. Mueller from the job, but he did not shut down 
the investigation. The President knew he was innocent.
    Those are the facts of the Mueller report. Russia meddled 
in the 2016 election, the President did not conspire with the 
Russians, and nothing we hear today will change those facts. 
But one element of this story remains: the beginnings of the 
FBI investigation into the President. I look forward to Mr. 
Mueller's testimony about what he found during his review of 
the origins of the investigation.
    In addition, the inspector general continues to review how 
baseless gossip can be used to launch an FBI investigation 
against a private citizen and eventually a President. Those 
results will be released, and we will need to learn from them 
to ensure government intelligence and our law enforcement 
powers are never again used and turned on a private citizen or 
a potential--or a political candidate as a result of the 
political leanings of a handful of FBI agents.
    The origins and conclusions of the Mueller investigation 
are the same things: what it means to be American. Every 
American has a voice in our democracy. We must protect the 
sanctity of their voice by combatting election interference. 
Every American enjoys the presumption of innocence and 
guarantee of due process. If we carry nothing--anything away 
today, it must be that we increase our vigilance against 
foreign election interference, while we ensure our government 
officials don't weaponize their power against the 
constitutional rights guaranteed to every U.S. citizen.
    Finally, we must agree that the opportunity cost here is 
too high. The months we have spent investigating from this dais 
failed to end the border crisis or contribute to the growing 
job market. Instead, we have gotten stuck, and it's paralyzed 
this committee and this House.
    And as a side note, every week, I leave my family and kids, 
the most important things to me, to come to this place because 
I believe this place is a place where we can actually do things 
and help people. Six and a half years ago, I came here to work 
on behalf of the people of the Ninth District in this country, 
and we accomplished a lot in those first 6 years on a 
bipartisan basis with many of my friends across the aisle 
sitting on this dais with me today. However, this year, because 
of the majority's dislike of this President and the endless 
hearing and to a closed investigation have caused us to 
accomplish nothing except talk about the problems of our 
country, while our border is on fire, in crisis, and everything 
else is stopped.
    This hearing is long overdue. We have had truth for months. 
No American conspired to throw our election. What we need today 
is to let that truth bring us confidence, and I hope, Mr. 
Chairman, closure.
    With that, I yield back.
    Chairman Nadler. Thank you, Mr. Collins.
    I will now introduce today's witness.
    Robert Mueller served as Director of the FBI from 2001 to 
2013, and most recently served as special counsel in the 
Department of Justice overseeing the investigation into Russian 
interference in the 2016 special election.
    He received his BA from Princeton University and MA from 
New York University, in my district, and his JD from the 
University of Virginia. Mr. Mueller is accompanied by counsel, 
Aaron Zebley, who served as deputy special counsel on the 
investigation.
    We welcome our distinguished witness, and we thank you for 
participating in today's hearing.
    Now, if you would please rise, I will begin by swearing you 
in.
    Raise your right hand, please.
    Do you swear or affirm under penalty of perjury that the 
testimony you're about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Let the record show the witness answered in the 
affirmative.
    Thank you. And please be seated.
    Please note that your written statement will be entered 
into the record in its entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes.
    Director Mueller, you may begin.

   STATEMENT OF ROBERT S. MUELLER, III, SPECIAL COUNSEL, THE 
   SPECIAL COUNSEL'S OFFICE, THE INVESTIGATION INTO RUSSIAN 
INTERFERENCE IN THE 2016 PRESIDENTIAL ELECTION, MAY 2017 TO MAY 
                              2019

    Mr. Mueller. Good morning, Chairman Nadler and Ranking 
Member Collins, and the members of the committee.
    As you know, in May 2017, the Acting Attorney General asked 
me to serve as special counsel. I undertook that role because I 
believed that it was of paramount interest to the Nation to 
determine whether a foreign adversary had interfered in the 
Presidential election. As the Acting Attorney General said at 
the time, the appointment was necessary in order for the 
American people to have full confidence in the outcome.
    My staff and I carried out this assignment with that 
critical objective in mind: to work quietly, thoroughly, and 
with integrity so that the public would have full confidence in 
the outcome.
    The order appointing me as special counsel directed our 
office to investigate Russian interference in the 2016 
Presidential election. This included investigating any links or 
coordination between the Russian Government and individuals 
associated with the Trump campaign. It also included 
investigating efforts to interfere with or obstruct our 
investigation.
    Throughout the investigation, I continually stressed two 
things to the team that we had assembled. First, we needed to 
do our work as thoroughly as possible and as expeditiously as 
possible. It was in the public interest for our investigation 
to be complete but not to last a day longer than was necessary.
    Second, the investigation needed to be conducted fairly and 
with absolute integrity. Our team would not leak or take other 
actions that could compromise the integrity of our work. All 
decisions were made based on the facts and the law.
    During the course of our investigation, we charged more 
than 30 defendants with committing Federal crimes, including 12 
officers of the Russian military. Seven defendants have been 
convicted or pled guilty. Certain other charges we brought 
remain pending today, and for those matters, I stress that the 
indictments contain allegations and every defendant is presumed 
innocent unless and until proven guilty.
    In addition to the criminal charges we brought, as required 
by Justice Department regulations, we submitted a confidential 
report to the Attorney General at the conclusion of our 
investigation. The report set forth the results of our work and 
the reasons for our charging and declination decisions. The 
Attorney General later made the report largely public.
    As you know, I made a few limited remarks about our report 
when we closed the Special Counsel's Office in May of this 
year, but there are certain points that bear emphasis. First, 
our investigation found that the Russian Government interfered 
in our election in sweeping and systematic fashion.
    Second, the investigation did not establish that members of 
the Trump campaign conspired with the Russian Government in its 
election interference activities. We did not address collusion, 
which is not a legal term; rather, we focused on whether the 
evidence was sufficient to charge any member of the campaign 
with taking part in a criminal conspiracy, and it was not.
    Third, our investigation of efforts to obstruct the 
investigation and lie to investigators was of critical 
importance. Obstruction of justice strikes at the core of the 
government's effort to find the truth and to hold wrongdoers 
accountable.
    Finally, as described in Volume II of our report, we 
investigated a series of actions by the President towards the 
investigation. Based on Justice Department policy and 
principles of fairness, we decided we would not make a 
determination as to whether the President committed a crime. 
That was our decision then and it remains our decision today.
    Let me say a further word about my appearance today. It is 
unusual for a prosecutor to testify about a criminal 
investigation. And given my role as a prosecutor, there are 
reasons why my testimony will necessarily be limited.
    First, public testimony could affect several ongoing 
matters. In some of these matters, court rules or judicial 
orders limit the disclosure of information to protect the 
fairness of the proceedings. And consistent with longstanding 
Justice Department policy, it would be inappropriate for me to 
comment in any way that could affect an ongoing matter.
    Second, the Justice Department has asserted privileges 
concerning investigative information and decisions, ongoing 
matters within the Justice Department, and deliberations within 
our office. These are Justice Department privileges that I will 
respect. The Department has released the letter discussing the 
restrictions on my testimony. I therefore will not be able to 
answer questions about certain areas that I know are of public 
interest.
    For example, I am unable to address questions about the 
initial opening of the FBI's Russia investigation, which 
occurred months before my appointment, or matters related to 
the so-called Steele dossier. These matters are subjects of 
ongoing review by the Department. Any questions on these topics 
should therefore be directed to the FBI or the Justice 
Department.
    As I explained when we closed the Special Counsel's Office 
in May, our report contains our findings and analysis and the 
reasons for the decisions we made. We conducted an extensive 
investigation over 2 years. In writing the report, we stated 
the results of our investigation with precision. We scrutinized 
every word. I do not intend to summarize or describe the 
results of our work in a different way in the course of my 
testimony today. And as I said on May 29, the report is my 
testimony, and I will stay within that text.
    And as I stated in May, I will not comment on the actions 
of the Attorney General or of Congress. I was appointed as a 
prosecutor, and I intend to adhere to that role and to the 
Department standards that govern it.
    I will be joined today by Deputy Special Counsel Aaron 
Zebley. Mr. Zebley has extensive experience as a Federal 
prosecutor and at the FBI, where he served as my chief of 
staff. Mr. Zebley was responsible for the day-to-day oversight 
of the investigations conducted by our office.
    Now, I also want to, again, say thank you to the attorneys, 
the FBI agents, the analysts, the professional staff who helped 
us conduct this investigation in a fair and independent manner. 
These individuals, who spent nearly 2 years working on this 
matter, were of the highest integrity.
    Let me say one more thing. Over the course of my career, I 
have seen a number of challenges to our democracy. The Russian 
Government's effort to interfere in our election is among the 
most serious. And as I said on May 29, this deserves the 
attention of every American.
    Thank you, Mr. Chairman.
    [The statement of Mr. Mueller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Nadler. Thank you.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Director Mueller, the President has repeatedly claimed that 
your report found there was no obstruction and that it 
completely and totally exonerated him. But that is not what 
your report said, is it?
    Mr. Mueller. Correct, that is not what the report said.
    Chairman Nadler. In our reading from page 2 of Volume II of 
your report that is on the screen, you wrote, quote, if we had 
confidence after a thorough investigation of the facts that the 
President clearly did not commit obstruction of justice, we 
would so state. Based on the facts and the applicable legal 
standards, however, we are unable to reach that judgment, close 
quote.
    Now, does that say there was no obstruction?
    Mr. Mueller. No.
    Chairman Nadler. In fact, you were actually unable to 
conclude the President did not commit obstruction of justice. 
Is that correct?
    Mr. Mueller. Well, we at the outset, determined that we--
when it came to the President's culpability, we needed to--we 
needed to go forward only after taking into account the OLC 
opinion that indicated that a President--a sitting President 
cannot be indicted.
    Chairman Nadler. So the report did not conclude that he did 
not commit obstruction of justice. Is that correct?
    Mr. Mueller. That is correct.
    Chairman Nadler. And what about total exoneration? Did you 
actually totally exonerate the President?
    Mr. Mueller. No.
    Chairman Nadler. Now, in fact, your report expressly states 
that it does not exonerate the President?
    Mr. Mueller. It does.
    Chairman Nadler. And your investigation actually found, 
quote, multiple acts by the President that were capable of 
exerting undue influence over law enforcement investigations, 
including the Russian interference and obstruction 
investigations. Is that correct?
    Mr. Mueller. Correct.
    Chairman Nadler. Now, Director Mueller, can you explain in 
plain terms what that finding means so the American people can 
understand it?
    Mr. Mueller. Well, the finding indicates that the President 
was not--that the President was not exculpated for the acts 
that he allegedly committed.
    Chairman Nadler. In fact, you were talking about incidents, 
quote, in which the President sought to use his official power 
outside of usual channels, unquote, to exert undue influence 
over your investigations. Is that right?
    Mr. Mueller. That's correct.
    Chairman Nadler. Now, am I correct, then, on page 7 of 
Volume II of your report, you wrote, quote, the President 
became aware that his own conduct was being investigated in an 
obstruction of justice inquiry. At that point, the President 
engaged in a second phase of conduct, involving public attacks 
on the investigation, nonpublic efforts to control it, and 
efforts in both public and private to encourage witnesses not 
to cooperate with the investigation, close quote.
    So President Trump's efforts to exert undue influence over 
your investigation intensified after the President became aware 
that he personally was being investigated?
    Mr. Mueller. I stick with the language that you have in 
front of you.
    Chairman Nadler. Which----
    Mr. Mueller. Which comes from page 7, Volume II.
    Chairman Nadler. Now, is it correct that if you concluded 
that the President committed the crime of obstruction, you 
could not publicly state that in your report or here today?
    Mr. Mueller. Can you repeat the question, sir?
    Chairman Nadler. Is it correct that if you had concluded 
that the President committed the crime of obstruction, you 
could not publicly state that in your report or here today?
    Mr. Mueller. Well, I would say you could--the statement 
would be that you would not indict and you would not indict 
because under the OLC opinion a sitting President cannot be 
indicted. It would be unconstitutional.
    Chairman Nadler. Okay. So you could not state that because 
of the OLC opinion if that had been your conclusion?
    Mr. Mueller. OLC opinion with some guide, yes.
    Chairman Nadler. But under DOJ--under Department of Justice 
policy, the President could be prosecuted for obstruction of 
justice crimes after he leaves office, correct?
    Mr. Mueller. True.
    Chairman Nadler. Thank you.
    Did any senior White House official refuse a request to be 
interviewed by you and your team?
    Mr. Mueller. I don't believe so.
    Well, let me take that back. I would have to look at it, 
but I'm not certain that that was the case.
    Chairman Nadler. Did the President refuse a request to be 
interviewed by you and your team?
    Mr. Mueller. Yes.
    Chairman Nadler. Yes. And is it true that you tried for 
more than a year to secure an interview with the President?
    Mr. Mueller. Yes.
    Chairman Nadler. And is it true that you and your team 
advised the President's lawyer that, quote, an interview with 
the President is vital to our investigation, close quote?
    Mr. Mueller. Yes. Yes.
    Chairman Nadler. And is it true that you also, quote, 
stated that it is in the interest of the Presidency and the 
public for an interview to take place, close quote?
    Mr. Mueller. Yes.
    Chairman Nadler. But the President still refused to sit for 
an interview by you or your team?
    Mr. Mueller. True. True.
    Chairman Nadler. And did you also ask him to provide 
written answers to questions under 10 possible episodes of 
obstruction of justice crimes involving him?
    Mr. Mueller. Yes.
    Chairman Nadler. Did he provide any answers to a single 
question about whether he engaged in obstruction of justice 
crimes?
    Mr. Mueller. I would have to check on that. I'm not 
certain.
    Chairman Nadler. Director Mueller, we are grateful that you 
are here to explain your investigation and findings. Having 
reviewed your work, I believe anyone else would engage in the 
conduct describing your report would have been criminally 
prosecuted. Your work is vitally important to this committee 
and the American people because no one is above the law.
    I'll now recognize the gentleman from Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    And we are moving, I understand and just reiterate, on the 
5-minute rule. Mr. Mueller, I have several questions, many of 
which that you just answered will be questioned here in a 
moment, but I want to lay some foundations. So we will go 
through these fairly quickly. I will talk slowly. I am said 
that I talk fast. I will talk slowly.
    Mr. Mueller. Thank you, sir.
    Mr. Collins. In your press conference, you stated any 
testimony from your office would not go beyond our report. We 
chose these words carefully. The words speaks for itself. I 
will not provide information beyond that which is already 
public in any appearance before Congress.
    Do you stand by that statement?
    Mr. Mueller. Yes.
    Mr. Collins. Since closing the Special Counsel's Office in 
May of 2019, have you conducted any additional interviews or 
obtained any new information in your role as special counsel?
    Mr. Mueller. In the wake of the report?
    Mr. Collins. Since the closing of the office in May of 
2019.
    Mr. Mueller. And the question was?
    Mr. Collins. Have you conducted any new interviews and any 
new witnesses or anything?
    Mr. Mueller. No.
    Mr. Collins. And you can confirm you're no longer special 
counsel, correct?
    Mr. Mueller. I am no longer special counsel.
    Mr. Collins. At any time with the investigation, was your 
investigation curtailed or stopped or hindered?
    Mr. Mueller. No.
    Mr. Collins. Were you or your team provided any questions 
by Members of Congress of the majority ahead of your hearing 
today?
    Mr. Mueller. No.
    Mr. Collins. Your report states that your investigative 
team included 19 lawyers and approximately 40 FBI agents and 
analysts and accountants. Are those numbers accurate?
    Mr. Mueller. Could you repeat that, please?
    Mr. Collins. Forty FBI agents, 19 lawyers, intelligence 
analysts, and forensic accountants. Are those numbers accurate? 
This is included in your report.
    Mr. Mueller. Generally, yes.
    Chairman Nadler. Is it also true that you issued over 2,800 
subpoenas, executed nearly 500 search warrants, obtained more 
than 230 orders for communication records, and 50 pen 
registers?
    Mr. Mueller. That went a little fast for me.
    Mr. Collins. Okay. In your report--I will make this very 
simple--you did a lot of work, correct?
    Mr. Mueller. Yes. That I agree to.
    Mr. Collins. A lot of subpoenas? A lot of pen registers?
    Mr. Mueller. A lot of subpoenas, yes.
    Mr. Collins. Okay. We will walk this really slow if we need 
to.
    Mr. Mueller. A lot search warrants.
    Mr. Collins. All right. A lot of search warrants, a lot of 
things. So you are very thorough?
    Mr. Mueller. What?
    Mr. Collins. In your opinion, very thorough, you listed 
this out in your report, correct?
    Mr. Mueller. Yes.
    Mr. Collins. Thank you.
    Is it true the evidence gathered during your 
investigation--or given the questions that you have just 
answered, is it true the evidence gathered during your 
investigation did not establish that the President was involved 
in the underlying crime related to Russian election 
interference as stated in Volume I, page 7?
    Mr. Mueller. We found insufficient evidence of the 
President's culpability----
    Mr. Collins. So that would be a yes.
    Mr. Mueller [continuing]. With--pardon?
    Mr. Collins. That would be a yes?
    Mr. Mueller. Yes.
    Mr. Collins. Thank you.
    Isn't it true the evidence did not establish that the 
President or those close to him were involved in the charge of 
Russian computer hacking or active measure conspiracies or that 
the President otherwise had unlawful relationships with any 
Russian official, Volume II, pages 76, correct?
    Mr. Mueller. I leave the answer to our report.
    Mr. Collins. So that is a yes.
    Is that true, your investigation did not establish that 
members of the Trump campaign conspired or coordinated with the 
Russian Government in the election interference activity, 
Volume I, page 2, Volume I, page 173?
    Mr. Mueller. Thank you. Yes.
    Mr. Collins. Yes. Thank you.
    Although your report states collusion is not a specific 
offense, and you have said that this morning, or a term of art 
in Federal criminal law, conspiracy is.
    In the colloquial context, are ``collusion'' and 
``conspiracy'' essentially synonymous terms?
    Mr. Mueller. You're going to have to repeat that for me.
    Mr. Collins. Collusion is not a specific offense or a term 
of art in the Federal criminal law; conspiracy is.
    Mr. Mueller. Yes.
    Mr. Collins. In the colloquial context, known public 
context, ``collusion'' and ``conspiracy'' are essentially 
synonymous terms, correct?
    Mr. Mueller. No.
    Mr. Collins. If no, on page 180 of Volume I of your report, 
you wrote, as defined in legal dictionaries, collusion is 
largely synonymous with conspiracy as that crime is set forth 
in the general Federal conspiracy statute, 18 U.S.C. 371. You 
said at your May 29 press conference and here today, you choose 
your words carefully. Are you sitting here today testifying to 
something different than what your report states?
    Mr. Mueller. Well, what I'm asking is, if you can give me 
the citation, I can look at the citation and evaluate whether 
it is accurate.
    Mr. Collins. Okay. Let me just be clarifying. You stated 
that you have stayed within the report. I just stated your 
report back to you. And you said that collusion and conspiracy 
were not synonymous terms. That was--your answer was no.
    Mr. Mueller. That's correct.
    Mr. Collins. In that page 180 of Volume I of your report it 
says, as defined in legal dictionaries, collusion is largely 
synonymous with conspiracy as that crime is set forth in 
general conspiracy statute 18 U.S.C. 371. Now, you said you 
chose your words carefully. Are you contradicting your report 
right now?
    Mr. Mueller. Not when I read it.
    Mr. Collins. So you change your answer to yes then?
    Mr. Mueller. No. No. If you look at the language----
    Mr. Collins. I'm reading your report, sir. It's a yes or no 
answer.
    Mr. Mueller. Page 180?
    Mr. Collins. Page 180, Volume I. This is from your report.
    Mr. Mueller. Correct. And I leave it with the report.
    Mr. Collins. So the report says, yes, they are synonymous.
    Mr. Mueller. Yes.
    Mr. Collins. Hopefully, for finally, out of your own 
report, we can put to bed the collusion and conspiracy.
    One last question as we're going through. Did you ever look 
into other countries investigated in the Russian's interference 
into our election? Were other countries investigated or found 
knowledge that they had interference in our election?
    Mr. Mueller. I'm not going to discuss other matters.
    Mr. Collins. With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady from California.
    Ms. Lofgren. Director Mueller, as you've heard from the 
chairman, we're mostly going to talk about obstruction of 
justice today. But the investigation of Russia's attack that 
started your investigation is why evidence of possible 
obstruction is serious.
    To what extent did the Russian Government interfere in the 
2016 Presidential election?
    Mr. Mueller. Could you repeat that, ma'am?
    Ms. Lofgren. To what extent did the Russian Government 
interfere in the 2016 Presidential election?
    Mr. Mueller. Well, particularly when it came to computer 
crimes and the like, the government was implicated.
    Ms. Lofgren. So you wrote, in Volume I, that the Russian 
Government interfered in the 2016 Presidential election in 
sweeping and systematic fashion. You also described in your 
report that the then-Trump campaign chairman Paul Manafort 
shared with a Russian operative, Kilimnik, the campaign 
strategy for winning Democratic votes in Midwestern States and 
internal polling data of the campaign. Isn't that correct?
    Mr. Mueller. Correct.
    Ms. Lofgren. They also discussed the status of the Trump 
campaign and Manafort's strategy for winning Democratic votes 
in Midwestern States. Months before that meeting, Manafort had 
caused internal data to be shared with Kilimnik, and the 
sharing continued for some period of time after their August 
meeting. Isn't that correct?
    Mr. Mueller. Accurate.
    Ms. Lofgren. In fact, your investigation found that 
Manafort briefed Kilimnik on the state of the Trump campaign 
and Manafort's plan to win the election, and that briefing 
encompassed the campaign's messaging, its internal polling 
data. It also included discussion of battleground States, which 
Manafort identified as Michigan, Wisconsin, Pennsylvania, and 
Minnesota. Isn't that correct?
    Mr. Mueller. That's correct.
    Ms. Lofgren. Did your investigation determine who requested 
the polling data to be shared with Kilimnik?
    Mr. Mueller. Well, I would direct you to the report and 
adopt what we have in the report with regard to that particular 
issue.
    Ms. Lofgren. We don't have the redacted version. That's 
maybe another reason why we should get that for Volume I.
    Based on your investigation, how could the Russian 
Government have used this campaign polling data to further its 
sweeping and systematic interference in the 2016 Presidential 
election?
    Mr. Mueller. That's a little bit out of our path.
    Ms. Lofgren. Fair enough.
    Did your investigation find that the Russian Government 
perceived it would benefit from one of the candidates winning?
    Mr. Mueller. Yes.
    Ms. Lofgren. And which candidate would that be?
    Mr. Mueller. Well, it would be Trump----
    Ms. Lofgren. Correct.
    Mr. Mueller [continuing]. The President.
    Ms. Lofgren. Now, the Trump campaign wasn't exactly 
reluctant to take Russian help. You wrote, it expected it would 
benefit electorally from information stolen and released 
through Russian efforts. Isn't that correct?
    Mr. Mueller. That's correct.
    Ms. Lofgren. Now, was the investigation's determination--
what was the investigation's determination regarding the 
frequency with which the Trump campaign made contact with the 
Russian Government?
    Mr. Mueller. Well, I would have to refer you to the report 
on that.
    Ms. Lofgren. Well, we went through and we counted 126 
contacts between Russians or their agents and Trump campaign 
officials or their associates. So would that sound about right?
    Mr. Mueller. I can't say. I understand the statistic and I 
believe it. I understand the statistic.
    Ms. Lofgren. Well, Mr. Mueller, I appreciate your being 
here and your report. From your testimony and the report, I 
think the American people have learned several things. First, 
the Russians wanted Trump to win; second, the Russians went on 
a sweeping cyber influence campaign. The Russians hacked the 
DNC, and they got the Democratic game plan for the election. 
The Russian campaign chairman met with Russian agents and 
repeatedly gave them internal data, polling, and messaging in 
the battleground States.
    So while the Russians were buying ads and creating 
propaganda to influence the outcome of the election, they were 
armed with inside information that they had stolen through 
hacking from the DNC and that they had been given by the Trump 
campaign chairman, Mr. Manafort.
    My colleagues will probe the efforts undertaken to keep 
this information from becoming public, but I think it's 
important for the American people to understand the gravity of 
the underlying problem that your report uncovered.
    And with that, Mr. Chairman, I would yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from Texas.
    Mr. Ratcliffe. Good morning, Director. If you'll let me 
quickly summarize your opening statement this morning. You said 
in Volume I on the issue of conspiracy, the special counsel 
determined that the investigation did not establish that 
members of the Trump campaign conspired or coordinated with the 
Russian Government in its election interference activities. And 
then in Volume II, for reasons that you explain, the special 
counsel did not make a determination on whether there was an 
obstruction of justice crime committed by the President.
    Is that fair?
    Mr. Mueller. Yes, sir.
    Mr. Ratcliffe. All right. Now, in explaining the special 
counsel did not make what you called a traditional prosecution 
or declination decision, the report on the bottom of page 2 of 
Volume II reads as follows: The evidence we obtained about the 
President's actions and intent presents difficult issues that 
prevent us from conclusively determining that no criminal 
conduct occurred. Accordingly, while this report does not 
conclude that the President committed a crime, it also does not 
exonerate him.
    Now, I read that correctly?
    Mr. Mueller. Yes.
    Mr. Ratcliffe. All right. Now, your report, and today, you 
said that all times the special counsel team operated under was 
guided by and followed Justice Department policies and 
principles. So which DOJ policy or principle sets forth a legal 
standard that an investigated person is not exonerated if their 
innocence from criminal conduct is not conclusively determined?
    Mr. Mueller. Can you repeat the last part of that question?
    Mr. Ratcliffe. Yeah. Which DOJ policy or principle sets 
forth a legal standard that an investigated person is not 
exonerated if their innocence from criminal conduct is not 
conclusively determined? Where does that language come from, 
Director? Where is the DOJ policy that says that?
    Let me make it easier.
    Mr. Mueller. Can I answer?
    Mr. Ratcliffe. Is there----
    Mr. Mueller. I'm sorry. Go ahead.
    Mr. Ratcliffe. Can you give me an example other than Donald 
Trump where the Justice Department determined that an 
investigated person was not exonerated because their innocence 
was not conclusively determined?
    Mr. Mueller. I cannot, but this is a unique situation.
    Mr. Ratcliffe. Okay. Well, you can't--time is short. I've 
got 5 minutes. Let's just leave it at you can't find it, 
because I'll tell you why. It doesn't exist. The special 
counsel's job--nowhere does it say that you were to 
conclusively determine Donald Trump's innocence or that the 
special counsel report should determine whether or not to 
exonerate him.
    It's not in any of the documents. It's not in your 
appointment order. It's not in the special counsel regulations. 
It's not in the OLC opinions. It's not in the Justice manual, 
and it's not in the principles of Federal prosecution.
    Nowhere do those words appear together because, 
respectfully, respectfully, Director, it was not the special 
counsel's job to conclusively determine Donald Trump's 
innocence or to exonerate him because the bedrock principle of 
our justice system is a presumption of innocence. It exists for 
everyone. Everyone is entitled to it, including sitting 
Presidents. And because there is a presumption of innocence, 
prosecutors never, ever need to conclusively determine it.
    Now, Director, the special counsel applied this inverted 
burden of proof that I can't find and you said doesn't exist 
anywhere in the Department policies, and you used it to write a 
report. And the very first line of your report, the very first 
line of your report says, as you read this morning, it 
authorizes the special counsel to provide the Attorney General 
with a confidential report explaining the prosecution or 
declination decisions reached by the special counsel. That's 
the very first word of your report, right?
    Mr. Mueller. That's correct.
    Mr. Ratcliffe. Here's the problem, Director. The special 
counsel didn't do that. On Volume I, you did. On Volume II, 
with respect to potential obstruction of justice, the special 
counsel made neither a prosecution decision or a declination 
decision. You made no decision. You told us this morning and in 
your report that you made no determination.
    So, respectfully, Director, you didn't follow the special 
counsel regulations. It clearly says write a confidential 
report about decisions reached. Nowhere in here does it say 
write a report about decisions that weren't reached. You wrote 
180 pages, 180 pages about decisions that weren't reached, 
about potential crimes that weren't charged or decided. And 
respectfully, respectfully, by doing that, you managed to 
violate every principle and the most sacred of traditions about 
prosecutors not offering extra prosecutorial analysis about 
potential crimes that aren't charged.
    So Americans need to know this, as they listen to the 
Democrats and socialists on the other side of the aisle as they 
do dramatic readings from this report, that Volume II of this 
report was not authorized under the law to be written. It was 
written to a legal standard that does not exist at the Justice 
Department, and it was written in violation of every DOJ 
principle about extra prosecutorial commentary.
    I agree with the chairman this morning when he said Donald 
Trump is not above the law. He's not. But he damn sure 
shouldn't be below the law, which is where Volume II of this 
report puts him.
    Chairman Nadler. The gentleman's time is expired.
    The gentlelady from Texas.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Director Mueller, good morning. Your exchange with the 
gentlelady from California demonstrates what is at stake. The 
Trump campaign chair Paul Manafort was passing sensitive voter 
information and poller data to a Russian operative. And there 
were so many other ways that Russia subverted our democracy.
    Together with the evidence in Volume I, I cannot think of a 
more serious need to investigate. So now I'm going to ask you 
some questions about obstruction of justice as it relates to 
Volume II.
    On page 12 of Volume II, you state, we determined that 
there were sufficient factual and legal basis to further 
investigate potential obstruction of justice issues involving 
the President. Is that correct?
    Mr. Mueller. And do you have a citation, ma'am?
    Ms. Jackson Lee. Page 12, Volume II.
    Mr. Mueller. And which portion of that page?
    Ms. Jackson Lee. That is, we determined that there was a 
sufficient factual and legal basis to further investigate 
potential obstruction of justice issues involving the 
President. Is that correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. Your report also described at least 10 
separate instances of possible obstruction of justice that were 
investigated by you and your team. Is that correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. In fact, the table of contents serves as a 
very good guide of some of the acts of that obstruction of 
justice that you investigated, and I put it up on the screen. 
On page 157 of Volume II, you describe those acts, and they 
range from the President's effort to curtail the special 
counsel's investigation, the President's further efforts to 
have the Attorney General take over the investigation, the 
President's orders Don McGahn to deny that the President tried 
to fire the special counsel, and many others. Is that correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. I direct you now to what you wrote, 
Director Mueller: The President's pattern of conduct as a whole 
sheds light on the nature of the President's acts and the 
inferences that can be drawn about his intent.
    Does that mean you have to investigate all of his conduct 
to ascertain true motive?
    Mr. Mueller. No.
    Ms. Jackson Lee. And when you talk about the President's 
pattern of conduct, that include the 10 possible acts of 
obstruction that you investigated. Is that correct? When you 
talk about the President's pattern of conduct, that would 
include the 10 possible acts of obstruction that you 
investigated, correct?
    Mr. Mueller. I direct you to the report for how that is 
characterized.
    Ms. Jackson Lee. Thank you.
    Let me go to the screen again. And for each of those 10 
potential instances of obstruction of justice, you analyzed 
three elements of a crime of obstruction of justice: an 
obstructive act, a nexus between the act and official 
proceeding, and corrupt intent. Is that correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. You wrote on page 178, Volume II in your 
report, about corrupt intent: Actions by the President to end a 
criminal investigation into his own conduct to protect against 
personal embarrassment or legal liability would constitute a 
core example of corruptly motivated conduct. Is that correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. To the screen again. Even with the 
evidence you did find, is it true, as you note on page 76 of 
Volume II, that the evidence does indicate that a thorough FBI 
investigation would uncover facts about the campaign and the 
President personally that the President could have understood 
to be crimes or that would give rise to legal, personal, and 
political concerns?
    Mr. Mueller. I rely on the language of the report.
    Ms. Jackson Lee. Is that relevant to potential obstruction 
of justice? Is that relevant to potential obstruction of 
justice?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. You further elaborate on page 157, 
obstruction of justice can be motivated by desire to protect 
noncriminal personal interests to protect against 
investigations where underlying criminal liability fall into a 
gray area or to avoid personal embarrassment. Is that correct?
    Mr. Mueller. I have on the screen----
    Ms. Jackson Lee. Is that correct on the screen?
    Mr. Mueller. Can you repeat the question, now that I have 
the language on the screen?
    Ms. Jackson Lee. Is it correct, as you further elaborate, 
obstruction of justice can be motivated by a direct desire to 
protect noncriminal personal interests to protect against 
investigations where underlying criminal liability falls into a 
gray area----
    Mr. Mueller. Yes.
    Ms. Jackson Lee [continuing]. Or to avoid--is that true?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. And is it true that the impact--pardon?
    Mr. Mueller. Can you read the last question?
    Ms. Jackson Lee. The last question was----
    Mr. Mueller. I want to make certain I got it accurate.
    Ms. Jackson Lee. No. The last question was the language on 
the screen asking you if that's correct.
    Mr. Mueller. Yes.
    Ms. Jackson Lee. Okay. Does a conviction of obstruction of 
justice result potentially in a lot of years of--a lot of years 
of time in jail?
    Mr. Mueller. Yes.
    Well, again, can you repeat the question just to make 
certain that I have it accurate?
    Ms. Jackson Lee. Does obstruction of justice warrant a lot 
of time in jail----
    Mr. Mueller. Yes.
    Ms. Jackson Lee [continuing]. If you were convicted?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. And if----
    Chairman Nadler. The time of the gentlelady is expired.
    The gentleman from Wisconsin.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Let me begin by reading the special counsel regulations by 
which you were appointed. It reads, quote, at the conclusion of 
the special counsel's work, he or she shall provide the 
Attorney General with a confidential report explaining the 
prosecution or declination's decisions reached by the special 
counsel. Is that correct?
    Mr. Mueller. Yes.
    Mr. Sensenbrenner. Okay. Now, when a regulation uses the 
word ``shall'' provide, does it mean that the individual is, in 
fact, obligated to provide what's being demanded by the 
regulation or statute, meaning you don't have any wiggle room, 
right?
    Mr. Mueller. I'd have to look more closely at the statute.
    Mr. Sensenbrenner. Well, I just read it to you.
    Okay. Now, Volume II, page 1, your report boldly states, we 
determined not to make a traditional prosecutorial judgment. Is 
that correct?
    Mr. Mueller. I'm trying to find that citation, Congressman.
    Chairman Nadler. Director, could you speak more directly 
into the microphone, please?
    Mr. Mueller. Yes.
    Chairman Nadler. Thank you.
    Mr. Sensenbrenner. It's Volume II, page----
    Mr. Mueller. Mr. Chairman--I am sorry.
    Mr. Sensenbrenner. Volume II, page 1, it said, we 
determined not to make a traditional prosecutorial judgment.
    Mr. Mueller. Yes.
    Mr. Sensenbrenner. That's right in the beginning.
    Now, since you decided under the OLC opinion that you 
couldn't prosecute a sitting President, meaning President 
Trump, why did we have all of this investigation of President 
Trump that the other side is talking about when you knew that 
you weren't going to prosecute him?
    Mr. Mueller. Well, you don't know where the investigation 
is going to lie, and the OLC opinion itself says that you can 
continue the investigation even though you are not going to 
indict the President.
    Mr. Sensenbrenner. Okay. Well, if you're not going to 
indict the President, then you just continue fishing. And 
that's--you know, that's my observation.
    Mr. Mueller. Well----
    Mr. Sensenbrenner. You know, sure--my time is limited. Sure 
you can indict other people, but you can't indict the sitting 
President, right?
    Mr. Mueller. That's true.
    Mr. Sensenbrenner. Okay. Now, there are 182 pages in raw 
evidentiary material, including hundreds of references to 302, 
which are interviews by the FBI, for individuals who have never 
been cross-examined and which did not comply with the special 
counsel's governing regulation to explain the prosecution or 
declination decisions reached. Correct?
    Mr. Mueller. And where are you reading from on that?
    Mr. Sensenbrenner. I'm reading from my question.
    Mr. Mueller. Then could you repeat it?
    Mr. Sensenbrenner. Okay. You have 182 pages of raw 
evidentiary material with hundreds of references to 302s who 
have never been cross-examined and which didn't comply with the 
governing regulation to explain the prosecution or 
declaration--declination decisions reached.
    Mr. Mueller. This is one of those areas which I decline to 
discuss by----
    Mr. Sensenbrenner. Okay. Then let----
    Mr. Mueller [continuing]. And would direct you to the 
report itself or what is done on that----
    Mr. Sensenbrenner. Well, I looked at 182 pages of it.
    You know, let me switch gears. Mr. Chabot and I were on 
this committee during the Clinton impeachment. Now, while I 
recognize that the independent counsel statute under which 
Kenneth Starr operated is different from the special counsel's 
statute, he in a number of occasions in his report stated that 
the--President Clinton's actions may have risen to impeachable 
conduct, recognizing that it is up to the House of 
Representatives to determine what conduct is impeachable.
    You never used the term ``raising'' to impeachable conduct 
for any of the 10 instances that the gentlewoman from Texas 
did. Is it true that there's nothing in Volume II of the report 
that says that the President may have engaged in impeachable 
conduct?
    Mr. Mueller. Well, we have studiously kept in the center of 
our investigation the--our mandate, and our mandate does not go 
to other ways of addressing conduct. Our mandate goes to what--
developing the report and turning the report in to the Attorney 
General.
    Mr. Sensenbrenner. With due respect, you know, it seems to 
me, you know, that there are a couple of statements that you 
made, you know, that said that this is not for me to decide, 
and the implication is that this is for this committee to 
decide.
    Now, you didn't use the word ``impeachable'' conduct like 
Starr did. There was no statute to prevent you from using the 
word ``impeachable'' conduct. And I go back to what Mr. 
Ratcliffe said, and that is, is that even the President is 
innocent until proven guilty.
    My time is up.
    Chairman Nadler. The gentleman's time is expired.
    The gentleman from Tennessee.
    Mr. Cohen. Thank you, Mr. Chair.
    First, I'd just like to restate what Mr. Nadler said about 
your career. It's a model of rectitude, and I thank you.
    Mr. Mueller. Thank you.
    Mr. Cohen. Based upon your investigation, how did President 
Trump react to your appointment as special counsel?
    Mr. Mueller. Again, I send you the report for where that is 
stated.
    Mr. Cohen. Well, there is a quote from page 78 of your 
report, Volume II, which reads, when Sessions told the 
President that a special counsel had been appointed, the 
President slumped back in his chair and said, quote, oh, my 
god. This is terrible. This is the end of my Presidency. I'm 
F'ed, unquote.
    Did Attorney General Sessions tell you about that little 
talk?
    Mr. Mueller. I'm not sure----
    Chairman Nadler. Director, please speak into the 
microphone.
    Mr. Mueller. Oh, surely. My apologies.
    I am not certain of the person who originally copied that 
quote.
    Mr. Cohen. Okay. Well, Sessions apparently said it, and one 
of his aides had it in his notes too, which I think you had, 
but that's become record. He wasn't pleased. He probably wasn't 
pleased with the special counsel and particularly you because 
of your outstanding reputation.
    Mr. Mueller. Correct.
    Mr. Cohen. Prior to your appointment, the Attorney General 
recused himself from the investigation because of his role in 
the 2016 campaign. Is that not correct?
    Mr. Mueller. That's correct.
    Mr. Cohen. Recusal means the Attorney General cannot be 
involved in the investigation. Is that correct?
    Mr. Mueller. That's the effect of recusal, yes.
    Mr. Cohen. And so instead, another Trump appointee, as you 
know Mr. Sessions was, Mr. Rosenstein became in charge of it. 
Is that correct?
    Mr. Mueller. Yes.
    Mr. Cohen. Wasn't Attorney General Sessions following the 
rules and professional advice of the Department of Justice 
ethics folks when he recused himself from the investigation?
    Mr. Mueller. Yes.
    Mr. Cohen. And yet the President repeatedly expressed his 
displeasure at Sessions' decision to follow those ethics rules 
to recuse himself from oversight of that investigation. Is that 
not correct?
    Mr. Mueller. That's correct based on what is written in the 
report.
    Mr. Cohen. And the President's reaction to the recusal, as 
noted in the report, Mr. Bannon recalled that the President was 
mad, as mad as Bannon had ever seen him, and he screamed at 
McGahn about how weak Sessions was. Do you recall that from the 
report?
    Mr. Mueller. That's in the report, yes.
    Mr. Cohen. Despite knowing that Attorney General Sessions 
was not supposed to be involved in the investigation, the 
President still tried to get the Attorney General to unrecuse 
himself after you were appointed special counsel. Is that 
correct?
    Mr. Mueller. Yes.
    Mr. Cohen. In fact, your investigation found that at some 
point after your appointment, quote, the President called 
Sessions at his home and asked if he would unrecuse himself. Is 
that not true?
    Mr. Mueller. It's true.
    Mr. Cohen. Now, that wasn't the first time the President 
asked Sessions to unrecuse himself, was it?
    Mr. Mueller. I know there were at least two occasions.
    Mr. Cohen. And one of them was with Flynn, and one of them 
was when Sessions and McGahn flew to Mar-a-Largo to meet with 
the President. Sessions recalled that the President pulled him 
aside to speak alone and suggest that he should do this 
unrecusal act, correct?
    Mr. Mueller. Correct.
    Mr. Cohen. And then when Michael Flynn--a few days after 
Flynn entered a guilty plea for lying to Federal agents and 
indicated his intent to cooperate with that investigation, 
Trump asked to speak to Sessions alone again in the Oval Office 
and again asked Sessions to unrecuse himself. True?
    Mr. Mueller. I refer you to the report for that.
    Mr. Cohen. Page 109, Volume II. Thank you, sir.
    Do you know of any point when the President personally 
expressed anger or frustrations at Sessions?
    Mr. Mueller. I'd have to pass on that.
    Mr. Cohen. Do you recall--and I think it's at page 78 of 
Volume II, the President told Sessions, you were supposed to 
protect me, you were supposed to protect me, or words to that 
effect?
    Mr. Mueller. Correct.
    Mr. Cohen. And is the Attorney General supposed to be the 
Attorney General of the United States of America or the 
consigliere for the President?
    Mr. Mueller. United States of America.
    Mr. Cohen. Thank you, sir.
    In fact, you wrote in your report that the President 
repeatedly sought to convince Sessions to unrecuse himself so 
Sessions could supervise the investigation in a way that would 
restrict its scope. Is that correct?
    Mr. Mueller. I rely on the report.
    Mr. Cohen. How could Sessions have restricted the scope of 
your investigation?
    Mr. Mueller. Well, I'm not going to speculate. If he--quite 
obviously if he took over as Attorney General, he would have 
greater latitude in his actions that would enable him to do 
things that otherwise he could not.
    Mr. Cohen. On page 113 you said the President believed that 
an unrecused Attorney General would play a protective role and 
could shield the President from the ongoing investigation.
    Regardless of all that, I want to thank you, Director 
Mueller, for your life of rectitude and service to our country. 
It's clear from your report and the evidence that the President 
wanted former Attorney General Sessions to violate the Justice 
Department ethics rules by taking over your investigation and 
improperly interfering with it to protect himself and his 
campaign. Your findings are so important because in America 
nobody is above the law.
    I yield back the balance of my time.
    Chairman Nadler. I thank the gentleman for yielding back.
    The gentleman from Ohio.
    Mr. Chabot. Thank you.
    Director Mueller, my Democratic colleagues were very 
disappointed in your report. They were expecting you to say 
something along the lines of, here's why President Trump 
deserves to be impeached, as much as Ken Starr did relative to 
President Clinton back about 20 years ago. Well, you didn't. So 
their strategy had to change.
    Now they allege that there's plenty of evidence in your 
report to impeach the President but the American people just 
didn't read it. And this hearing today is their last best hope 
to build up some sort of ground swell across America to impeach 
President Trump. That's what this is really all about today.
    Now, a few questions. On page 103 of Volume II of your 
report, when discussing the June 2016 Trump Tower meeting, you 
reference, quote, the firm that produced the Steele reporting, 
unquote. The name of that firm was Fusion GPS. Is that correct?
    Mr. Mueller. And you're on page 103?
    Mr. Chabot. 103, that's correct, Volume II. When you talk 
about the firm that produced the Steele reporting, the name of 
the firm that produced that was Fusion GPS. Is that correct?
    Mr. Mueller. I'm not familiar with that. Could you----
    Mr. Chabot. Let me just help you. It was. It's not a trick 
question. It was Fusion GPS.
    Now, Fusion GPS produced the opposition research document 
widely known as the Steele dossier, and the owner of Fusion GPS 
was someone named Glenn Simpson. Are you familiar with----
    Mr. Mueller. This is outside my purview.
    Mr. Chabot. Okay. Glenn Simpson was never mentioned in the 
448-page Mueller report, was he?
    Mr. Mueller. Well, as I say, it's outside my purview, and 
it's being handled in the Department by others.
    Mr. Chabot. Okay. Well, he was not. 448 pages, the owner of 
Fusion GPS that did the Steele dossier that started all this, 
he's not mentioned in there.
    Let me move on. At the same time, Fusion GPS was working to 
collect opposition research on Donald Trump from foreign 
sources on behalf of the Clinton campaign and the Democratic 
National Committee. It also was representing a Russian-based 
company, Prevezon, which had been sanctioned by the U.S. 
Government. Are you aware of that?
    Mr. Mueller. That's outside my purview.
    Mr. Chabot. Okay. Thank you.
    One of the key players in the--I'll go to something 
different. One of the key players in the June 2016 Trump Tower 
meeting was Natalia Veselnitskaya, who you described in your 
report as a Russian attorney who advocated for the repeal of 
the Magnitsky Act. Veselnitskaya had been working with none 
other than Glenn Simpson and Fusion GPS since at least early 
2014. Are you aware of that?
    Mr. Mueller. Outside my purview.
    Mr. Chabot. Thank you.
    But you didn't mention that or her connections to Glenn 
Simpson at Fusion GPS in your report at all.
    Let me move on. Now, NBC News has reported the following: 
quote, Russian lawyer Natalia Veselnitskaya says she first 
received the supposedly incriminating information she brought 
to Trump Tower describing alleged tax evasion and donation to 
Democrats from none other than Glenn Simpson, the Fusion GPS 
owner.
    You didn't include that in the report, and I assume----
    Mr. Mueller [continuing]. It is a matter being handled by 
others at the Department of Justice.
    Mr. Chabot. Thank you. Now, your report spends 14 pages 
discussing the June 9, 2016, Trump Tower meeting. It would be 
fair to say, would it not, that you spent significant resources 
investigating that meeting?
    Mr. Mueller. I refer you to the report.
    Mr. Chabot. Okay. And President Trump wasn't at the 
meeting?
    Mr. Mueller. No, he was not.
    Mr. Chabot. Thank you. Now, in stark contrast to the 
actions of the Trump campaign, we know that the Clinton 
campaign did pay Fusion GPS to gather dirt on the Trump 
campaign from persons associated with foreign governments. But 
your report doesn't mention a thing about Fusion GPS in it, and 
you didn't investigate Fusion GPS' connections to Russia.
    So let me just ask you this: Can you see that, from 
neglecting to mention Glenn Simpson and Fusion GPS' involvement 
with the Clinton campaign to focusing on a brief meeting at the 
Trump Tower that produced nothing to ignoring the Clinton 
campaign's own ties to Fusion GPS, why some view your report as 
a pretty one-sided attack on the President?
    Mr. Mueller. Well, I tell you, it is still outside my 
purview.
    Mr. Chabot. And I would just note, finally, that I guess it 
is just by chance, by coincidence that the things left out of 
the report tended to be favorable to the President.
    Chairman Nadler. Your time has expired.
    Mr. Chabot. My time has expired.
    Chairman Nadler. The gentleman from Georgia.
    Mr. Johnson of Georgia. Thank you.
    Director Mueller, I would like to get us back on track 
here. Your investigation found that President Trump directed 
White House Counsel Don McGahn to fire you. Isn't that correct?
    Mr. Mueller. True.
    Mr. Johnson of Georgia. And the President claimed that he 
wanted to fire you because you had supposed conflicts of 
interest. Isn't that correct?
    Mr. Mueller. True.
    Mr. Johnson of Georgia. You had no conflicts of interest 
that required your removal. Isn't that a fact?
    Mr. Mueller. Also correct.
    Mr. Johnson of Georgia. And, in fact, Don McGahn advised 
the President that the asserted conflicts were, in his words, 
silly and not real conflicts. Isn't that true?
    Mr. Mueller. I refer to the report on that episode.
    Mr. Johnson of Georgia. Well, page 85 of Volume II speaks 
to that. And, also, Director Mueller, DOJ Ethics officials 
confirmed that you had no conflicts that would prevent you from 
serving as special counsel. Isn't that correct?
    Mr. Mueller. That is correct.
    Mr. Johnson of Georgia. But despite Don McGahn and the 
Department of Justice guidance, around May 23, 2017, the 
President, quote, prodded McGahn to complain to Deputy Attorney 
General Rosenstein about these supposed conflicts of interest, 
correct?
    Mr. Mueller. Correct.
    Mr. Johnson of Georgia. And McGahn declined to call 
Rosenstein--or Rosenstein, I am sorry--telling the President 
that it would look like still trying to meddle in the 
investigation and knocking out Mueller would be another fact 
used to claim obstruction of justice. Isn't that correct?
    Mr. Mueller. Generally so, yes.
    Mr. Johnson of Georgia. And, in other words, Director 
Mueller, the White House counsel told the President that if he 
tried to remove you that that could be another basis to allege 
that the President was obstructing justice, correct?
    Mr. Mueller. That is generally correct, yes.
    Mr. Johnson of Georgia. Now, I would like to review what 
happened after the President was warned about obstructing 
justice. On Tuesday, June----
    Mr. Mueller. I am sorry, Congressman. Do you have a 
citation for that?
    Mr. Johnson of Georgia. Yes. Volume II, page 81----
    Mr. Mueller. Thank you.
    Mr. Johnson of Georgia [continuing]. And 82. Now, I would 
like to review what happened after the President was warned 
about obstructing justice. It is true that, on Tuesday, June 
13, 2017, the President dictated a press statement stating he 
had, quote, no intention of firing you, correct?
    Mr. Mueller. Correct.
    Mr. Johnson of Georgia. But the following day, June 14th, 
the media reported for the first time that you were 
investigating the President for obstruction of justice, 
correct?
    Mr. Mueller. Correct.
    Mr. Johnson of Georgia. And then, after learning for the 
first time that he was under investigation, the very next day 
the President, quote, issued a series of tweets acknowledging 
the existence of the obstruction investigation and criticizing 
it. Isn't that correct?
    Mr. Mueller. Generally so.
    Mr. Johnson of Georgia. And then, on Saturday, June 17th, 2 
days later, the President called Don McGahn at home from Camp 
David on a Saturday to talk about you. Isn't that correct?
    Mr. Mueller. Correct.
    Mr. Johnson of Georgia. What was the significant--what was 
significant about that first weekend phone call that Don McGahn 
took from President Trump?
    Mr. Mueller. I am going to ask you to rely on what we wrote 
about those incidents.
    Mr. Johnson of Georgia. Well, you wrote in you your report 
that on--at page 85, Volume II, that, on Saturday, June 17, 
2017, the President called McGahn at home to have the special 
counsel removed. Now, did the President call Don McGahn more 
than once that day?
    Mr. Mueller. Well----
    Mr. Johnson of Georgia. I think there were two calls.
    Chairman Nadler. Speak into the mike, please.
    Mr. Mueller. I am sorry about that.
    Mr. Johnson of Georgia. On page 85 of your report, you 
wrote, quote, on the first call, McGahn recalled that the 
President said something like, quote, ``You got to do this, you 
got to call Rod,'' correct?
    Mr. Mueller. Correct.
    Mr. Johnson of Georgia. And your investigation and report 
found that Don McGahn was perturbed, to use your words, by the 
President's request to call Rod Rosenstein to fire him. Isn't 
that correct?
    Mr. Mueller. Well, there was a continuous colloquy. There 
was a continuous involvement of Don McGahn responding to the 
President's entreaties.
    Mr. Johnson of Georgia. And he did not want to put himself 
in the middle of that. He did not want to have a role in asking 
the Attorney General to fire the special counsel, correct?
    Mr. Mueller. Well, I would again refer you to the report 
and the way it is characterized in the report.
    Mr. Johnson of Georgia. Thank you. At Volume II, page 85, 
it states that he didn't want to have the Attorney General--he 
didn't want to have a role in trying to fire the Attorney 
General.
    So, at this point, I will yield back.
    Chairman Nadler. The gentleman's time is expired. The 
gentleman from Texas.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Mr. Mueller, well, first, let me ask unanimous consent, Mr. 
Chairman, to submit this article ``Robert Mueller: Unmasked'' 
for the record.
    Chairman Nadler. Without objection.
    [The information follows:]
      

 MR. GOHMERT FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Gohmert. Now, Mr. Mueller, who wrote the 9-minute 
comments you read at your May 29th press conference?
    Mr. Mueller. I am not going to get into that.
    Mr. Gohmert. Okay. So that is what I thought. You didn't 
write it.
    A 2013 puff piece in The Washingtonian about Comey said, 
basically, when Comey called, you would drop everything you 
were doing. It gave examples: You were having dinner with your 
wife and daughter. Comey calls. You drop everything and go.
    The article quoted Comey as saying: If a train were coming 
down the track, and I quote, at least Bob Mueller will be 
standing on the tracks with me.
    You and James Comey have been good friends or were good 
friends for many years, correct?
    Mr. Mueller. No, we were business associates. We both 
started off in the Justice Department about the same time.
    Mr. Gohmert. You were good friends. You can work together 
and not be friends, but you and Comey were friends.
    Mr. Mueller. We were friends.
    Mr. Gohmert. That is my question. Thank you for getting to 
the answer.
    Now, before you were appointed as special counsel, had you 
talked to James Comey in the preceding 6 months?
    Mr. Mueller. No.
    Mr. Gohmert. When you were appointed as special counsel, 
was President Trump's firing of Comey something you anticipated 
investigating, potentially obstruction of justice?
    Mr. Mueller. I am not going to get into that, internal 
deliberations at the Justice Department.
    Mr. Gohmert. Actually, it goes to your credibility, and 
maybe you have been away from the courtroom for a while. 
Credibility is always relevant. It is always material. And that 
goes for you too. You are a witness before us.
    Let me ask you, when you talked to President Trump the day 
before he appointed--or you were appointed as special counsel--
you were talking to him about the FBI Director position again--
did he----
    Mr. Mueller. That is not----
    Mr. Gohmert [continuing]. Mention the firing of James 
Comey----
    Mr. Mueller [continuing]. Not as a candidate. I was asked--
--
    Mr. Gohmert. Did he mention the firing of James Comey in 
your discussion with him?
    Mr. Mueller. I cannot remember.
    Mr. Gohmert. Pardon?
    Mr. Mueller. I cannot remember. I don't believe so, but I 
am not going to be specific.
    Mr. Gohmert. You don't remember. But if he did, you could 
have been a fact witness as to the President's comments and 
state of mind on firing James Comey.
    Mr. Mueller. I suppose that is possible.
    Mr. Gohmert. Yeah. So most prosecutors would want to make 
sure there was no appearance of impropriety, but in your case, 
you hired a bunch of people that did not like the President.
    Let me ask you, when did you first learn of Peter Strzok's 
animus toward Donald Trump?
    Mr. Mueller. In the summer of 2017.
    Mr. Gohmert. You didn't know before he was hired?
    Mr. Mueller. I am sorry?
    Mr. Gohmert. You didn't know before he was hired for your 
team?
    Mr. Mueller. Know what?
    Mr. Gohmert. Peter Strzok hated Trump.
    Mr. Mueller. Okay.
    Mr. Gohmert. You didn't know that before he was made part 
of your team. Is that what you are saying?
    Mr. Mueller. No, I did not know that.
    Mr. Gohmert. All right. When did you first learn----
    Mr. Mueller. And, actually, when I did find out, I acted 
swiftly to have him reassigned elsewhere in the FBI.
    Mr. Gohmert. Well, there is some discussion about how swift 
that was. But when did you learn of the ongoing affair he was 
having with Lisa Page?
    Mr. Mueller. About the same time that I learned of Strzok.
    Mr. Gohmert. Did you ever order anybody to investigate the 
deletion of all of their texts off of their government phones?
    Mr. Mueller. Once we found that Peter Strzok was author 
of----
    Mr. Gohmert. Did you ever order----
    Mr. Mueller. May I finish?
    Mr. Gohmert. Well, you are not answering my question. Did 
you order an investigation into the deletion and reformatting 
of their government phones?
    Mr. Mueller. No. There was an IG investigation ongoing.
    Mr. Gohmert. Listen. Regarding collusion or conspiracy, you 
didn't find evidence of any agreement--I am quoting you--among 
the Trump campaign officials and any Russia-linked officials to 
interfere with our U.S. election, correct?
    Mr. Mueller. Correct.
    Mr. Gohmert. So you also note in the report that an element 
of any of those obstructions you referenced requires a corrupt 
state of mind, correct?
    Mr. Mueller. Corrupt intent, correct.
    Mr. Gohmert. Right. And if somebody knows they did not 
conspire with anybody from Russia to affect the election, and 
they see the big Justice Department with people that hate that 
person coming after them, and then a special counsel appointed 
who hires a dozen or more people that hate that person, and he 
knows he is innocent. He is not corruptly acting in order to 
see that justice is done. What he is doing is not obstructing 
justice. He is pursuing justice, and the fact that you ran it 
out 2 years means you perpetuated injustice.
    Mr. Mueller. I take your question.
    Chairman Nadler. The gentleman's time is expired. The 
witness may answer the question.
    Mr. Mueller. I take your question.
    Chairman Nadler. The gentleman from Florida.
    Mr. Deutch. Director Mueller, I would like to get back to 
your findings covering June of 2017. There was a bombshell 
article that reported that the President of the United States 
was personally under investigation for obstruction of justice. 
And you said in your report, on page 90, Volume II, and I 
quote: News of the obstruction investigation prompted the 
President to call McGahn and seek to have the special counsel 
removed, close quote.
    And then, in your report, you wrote about multiple calls 
from the President to White House Counsel Don McGahn. And 
regarding the second call, you wrote, and I quote: McGahn 
recalled that the President was more direct, saying something 
like: Call Rod, tell Rod that Mueller has conflicts and can't 
be the special counsel. McGahn recalled the President telling 
him: Mueller has to go and call me back when you do it.
    Director Mueller, did McGahn understand what the President 
was ordering him to do?
    Mr. Mueller. I direct you to the--what we have written in 
the report in terms of characterizing his feelings.
    Mr. Deutch. And in the report, it says, quote: McGahn 
understood the President to be saying that the special counsel 
had to be removed. You also say, on page 86, that, quote, 
McGahn considered the President's request to be an inflection 
point, and he wanted to hit the brakes, and he felt trapped, 
and McGahn decided he had to resign.
    McGahn took action to prepare to resign. Isn't that 
correct?
    Mr. Mueller. I direct you again to the report.
    Mr. Deutch. And, in fact, that very day he went to the 
White House, and quoting your report, you said, quote: He then 
drove to the office to pack his belongings and submit his 
resignation letter, close quote.
    Mr. Mueller. That is directly from the report.
    Mr. Deutch. It is. And before he resigned, however, he 
called the President's chief of staff, Reince Priebus, and he 
called the President's senior adviser, Steve Bannon. Do you 
recall what McGahn told them?
    Mr. Mueller. Whatever was said will appear in the report.
    Mr. Deutch. It is. It is. And it says on page 87, quote: 
Priebus recalled that McGahn said that the President asked him 
to do crazy expletive--in other words, crazy stuff. The White 
House counsel thought that the President's request was 
completely out of bounds. He said the President asked him to do 
something crazy. It was wrong, and he was prepared to resign 
over it.
    Now, these are extraordinarily troubling events, but you 
found White House Counsel McGahn to be a credible witness. 
Isn't that correct?
    Mr. Mueller. Correct.
    Mr. Deutch. Director Mueller, the most important question I 
have for you today is why? Director Mueller, why did the 
President of the United States want you fired?
    Mr. Mueller. I can't answer that question.
    Mr. Deutch. Well, on page 89 in your report on Volume II, 
you said, and I quote: Substantial evidence indicates that the 
President's attempts to remove the special counsel were linked 
to the special counsel's oversight of investigations that 
involved the President's conduct and, most immediately, to 
reports that the President was being investigated for potential 
obstruction of justice, close quote.
    Director Mueller, you found evidence, as you lay out in 
your report, that the President wanted to fire you because you 
were investigating him for obstruction of justice. Isn't that 
correct?
    Mr. Mueller. That is what it says in the report, yes. And I 
go--I stand behind the report.
    Mr. Deutch. Director Mueller, that shouldn't happen in 
America. No President should be able to escape investigation by 
abusing his power. But that is what you testified to in your 
report. The President ordered you fired. The White House 
counsel knew it was wrong. The President knew it was wrong. In 
your report, it says there is also evidence the President knew 
he should not have made those calls to McGahn. But the 
President did it anyway. He did it anyway. Anyone else who 
blatantly interfered with a criminal investigation like yours 
would be arrested and indicted on charges of obstruction of 
justice.
    Director Mueller, you determined that you were barred from 
indicting a sitting President. We have already talked about 
that today. That is exactly why this committee must hold the 
President accountable.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady from Alabama.
    Ms. Roby. Director Mueller, you just said, in response to 
two different lines of questioning, that you would refer, as it 
relates to this firing discussion, that I would refer you to 
the report and the way it was characterized in the report.
    Importantly, the President never said ``fire Mueller'' or 
``end the investigation,'' and one doesn't necessitate the 
other. And McGahn, in fact, did not resign, he stuck around for 
a year and a half.
    On March 24th, Attorney General Barr informed the committee 
that he had received the special counsel's report, and it was 
not until April 18th that the Attorney General released the 
report to Congress and the public. When you submitted your 
report to the Attorney General, did you deliver a redacted 
version of the report so that he would be able to release it to 
Congress and the public without delay, pursuant to his 
announcement of his intention to do so during his confirmation 
hearing?
    Mr. Mueller. I am not going to engage in discussion about 
what happened after the production of our report.
    Ms. Roby. Had the Attorney General asked you to provide a 
redacted version of the report?
    Mr. Mueller. We worked on the redacted versions together.
    Ms. Roby. Did he ask you for a version where the grand jury 
material was separated?
    Mr. Mueller. I am not going to get into details.
    Ms. Roby. Is it your belief that an unredacted version of 
the report could be released to Congress or the public?
    Mr. Mueller. That is not within my purview.
    Ms. Roby. In the Starr investigation of President Clinton, 
it was the special prosecutor who went to court to receive 
permission to unredact grand jury material, rule 6(e) material. 
Why did you not take a similar action so Congress could view 
this material?
    Mr. Mueller. We had a process that we were operating on 
with the Attorney General's Office.
    Ms. Roby. Are you aware of any Attorney General going to 
court to receive similar permission to unredact 6(e) material?
    Mr. Mueller. I am not aware of that being done.
    Ms. Roby. The Attorney General released the special 
counsel's report with minimal redactions to the public and an 
even lesser redacted version to Congress. Did you write the 
report with the expectation that it would be released publicly?
    Mr. Mueller. No, we did not have an expectation. We wrote 
the report, understanding that it was demanded by the statute 
and would go to the Attorney General for further review.
    Ms. Roby. And pursuant to the special counsel regulations, 
who is the only party that must receive the charging decision 
resulting from the special counsel's investigation?
    Mr. Mueller. With regard to the President or generally?
    Ms. Roby. No, generally.
    Mr. Mueller. Attorney General.
    Ms. Roby. At Attorney General Barr's confirmation hearing, 
he made it clear that he intended to release your report to the 
public. Do you remember how much of your report had been 
written at that point?
    Mr. Mueller. I do not.
    Ms. Roby. Were there significant changes in tone or 
substance of the report made after the announcement that the 
report would be made available to Congress and the public?
    Mr. Mueller. I can't get into that.
    Ms. Roby. During the Senate testimony of Attorney General 
William Barr, Senator Kamala Harris asked Mr. Barr if he had 
looked at all the underlying evidence that the special 
counsel's team had gathered. He stated that he had not.
    So I am going to ask you, did you personally review all of 
the underlying evidence gathered in your investigation?
    Mr. Mueller. Well, to the extent that it came through the 
Special Counsel's Office, yes.
    Ms. Roby. Did any single member of your team review all the 
underlying evidence gathered during the course of your 
investigation?
    Mr. Mueller. As has been recited here today, a substantial 
amount of work was done, whether it be search warrants or----
    Ms. Roby. My point is there is no one member of the team 
that looked at everything.
    Mr. Mueller. That is what I am trying to get at.
    Ms. Roby. Okay. It is fair to say that, in an investigation 
as comprehensive as yours, it is normal that different members 
of the team would have reviewed different sets of documents and 
few, if anyone, would have reviewed all of the underlying----
    Mr. Mueller. Thank you. Yes.
    Ms. Roby. How many of the approximately 500 interviews 
conducted by the special counsel did you attend personally?
    Mr. Mueller. Very few.
    Ms. Roby. On March 27, 2019, you wrote a letter to the 
Attorney General essentially complaining about the media 
coverage of your report. You wrote, and I quote: The summary 
letter the Department sent to Congress and released to the 
public late in the afternoon of March 24 did not fully capture 
the context, nature, and substance of this office's work and 
conclusions. We communicated that concern to the Department on 
the morning of March 25th. There is now public confusion about 
critical aspects of the result of our investigation.
    Who wrote that March 27th letter?
    Mr. Mueller. Well, I can't get into who wrote it, the 
internal deliberations.
    Ms. Roby. But you signed it?
    Mr. Mueller. What I will say is the letter stands for 
itself.
    Ms. Roby. Okay. Why did you write a formal letter since you 
had already called the Attorney General to express those 
concerns?
    Mr. Mueller. I can't get into that, internal deliberations.
    Ms. Roby. Did you authorize the letter's release to the 
media, or was it leaked?
    Mr. Mueller. I have no knowledge on either.
    Ms. Roby. Well, you went nearly 2 years without a leak. Why 
was this letter leaked?
    Mr. Mueller. Well, I can't get into it.
    Ms. Roby. Was this letter written and leaked for the 
express purpose of attempting to change the narrative about the 
conclusions of your report, and was anything in Attorney 
General Barr's letter referred to as principal conclusions 
inaccurate?
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Roby. May he answer the question, please?
    Mr. Mueller. The question is?
    Chairman Nadler. Yes, you may answer the question.
    Ms. Roby. Was anything in Attorney General Barr's letter 
referred to as the principal conclusions letter dated March 
24th inaccurate?
    Mr. Mueller. Well, I am not going to get into that.
    Chairman Nadler. The time of the gentlelady has expired.
    The gentlelady from California.
    Ms. Bass. Thank you, Mr. Chair.
    Director Mueller, as you know, we are focusing on five 
obstruction episodes today. I would like to ask you about the 
second of those five obstruction episodes. It is in the section 
of your report beginning on page 113 of Volume II entitled, 
quote, ``The President orders McGahn to deny that the President 
tried to fire the special counsel,'' end quote.
    On January 25th, 2018, The New York Times reported that, 
quote: The President had ordered McGahn to have the Department 
of Justice fire you.
    Is that correct?
    Mr. Mueller. Correct.
    Ms. Bass. And that story related to the events you already 
testified about here today, the President's calls to McGahn to 
have you removed, correct?
    Mr. Mueller. Correct.
    Ms. Bass. After the news broke, did the President go on TV 
and deny the story?
    Mr. Mueller. I do not know.
    Ms. Bass. In fact, the President said, quote: Fake news, 
folks, fake news, a typical New York Times fake story, end 
quote. Correct?
    Mr. Mueller. Correct.
    Ms. Bass. But your investigation actually found substantial 
evidence that McGahn was ordered by the President to fire you, 
correct?
    Mr. Mueller. Yes.
    Ms. Bass. Did the President's personal lawyer do something 
the following day in response to that news report?
    Mr. Mueller. I would refer you to the coverage of this in 
the report.
    Ms. Bass. On page 114, quote: On January 26, 2018, the 
President's personal counsel called McGahn's attorney and said 
that the President wanted McGahn to put out a statement denying 
that he had been asked to fire the special counsel, end quote.
    Did McGahn do what the President asked?
    Mr. Mueller. I refer you to the report.
    Ms. Bass. Communicating through his personal attorney, 
McGahn refused because he said, quote, that the Times story was 
accurate in reporting that the President wanted the special 
counsel removed. Isn't that right?
    Mr. Mueller. I believe it is, but I refer you again to the 
report.
    Ms. Bass. Okay. So Mr. McGahn, through his personal 
attorney, told the President that he was not going to lie. Is 
that right?
    Mr. Mueller. True.
    Ms. Bass. Did the President drop the issue?
    Mr. Mueller. I refer to the write-up of this in the report.
    Ms. Bass. Okay. Next, the President told the White House 
staff secretary, Rob Porter, to try to pressure McGahn to make 
a false denial. Is that correct?
    Mr. Mueller. That is correct.
    Ms. Bass. What did he actually direct Porter to do?
    Mr. Mueller. And I send you back to the report.
    Ms. Bass. Okay. Well, on page 113, it says, quote: The 
President then directed Porter to tell McGahn to create a 
record to make it clear that the President never directed 
McGahn to fire you, end quote. Is that correct?
    Mr. Mueller. That is as it is stated in the report.
    Ms. Bass. And you found, quote, the President said he 
wanted McGahn to write a letter to the file for our records, 
correct?
    Mr. Mueller. Correct.
    Ms. Bass. And to be clear, the President is asking his 
White House counsel, Don McGahn, to create a record that McGahn 
believed to be untrue while you were in the midst of 
investigating the President for obstruction of justice, 
correct?
    Mr. Mueller. Generally correct.
    Ms. Bass. And Mr. McGahn was an important witness in that 
investigation, wasn't he?
    Mr. Mueller. I would have to say yes.
    Ms. Bass. Did the President tell Porter to threaten McGahn 
if he didn't create the written denial?
    Mr. Mueller. I would refer you to the write-up of it in the 
report.
    Ms. Bass. In fact, didn't the President say, quote, and 
this is on page 116, ``If he doesn't write a letter, then maybe 
I will have to get rid of him,'' end quote?
    Mr. Mueller. Yes.
    Ms. Bass. Did Porter deliver that threat?
    Mr. Mueller. I again refer you to the discussion that is 
found on page 115.
    Ms. Bass. Okay. But the President still didn't give up, did 
he? So the President told McGahn directly to deny that the 
President told him to have you fired. Can you tell me exactly 
what happened?
    Mr. Mueller. I can't beyond what is in the report.
    Ms. Bass. Well, on page 116, it says: The President met him 
in the Oval Office. Quote: The President began the Oval Office 
meeting by telling McGahn that The New York Times story didn't 
look good and McGahn needed to correct it.
    Is that correct?
    Mr. Mueller. As it is written in the report, yes.
    Ms. Bass. The President asked McGahn whether he would do a 
correction and McGahn said no, correct?
    Mr. Mueller. That is accurate.
    Ms. Bass. Well, Mr. Mueller, thank you for your 
investigation uncovering this very disturbing evidence. My 
friend Mr. Richmond will have additional questions on the 
subject. However, it is clear to me if anyone else had ordered 
a witness to create a false record and cover up acts that are 
the subject of a law enforcement investigation, that person 
would be facing criminal charges.
    I yield back my time.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from Ohio.
    Mr. Jordan. Director, the FBI interviewed Joseph Mifsud on 
February 10, 2017. In that interview, Mr. Mifsud lied. You 
point this out on page 193, Volume I. Mifsud denied. Mifsud 
also falsely stated. In addition, Mifsud omitted.
    Three times he lied to the FBI, yet you didn't charge him 
with a crime. Why not?
    Mr. Mueller. Excuse me, did you say 1--I am sorry, did you 
say 193?
    Mr. Jordan. Volume I, 193. He lied three times. You point 
it out in the report. Why didn't you charge him with a crime?
    Mr. Mueller. I can't get into internal deliberations with 
regard to who would or would not be charged.
    Mr. Jordan. You charged a lot of other people for making 
false statements. Let's remember this, let's remember this: In 
2016, the FBI did something they probably haven't done before. 
They spied on two American citizens associated with the 
Presidential campaign: George Papadopoulos and Carter Page.
    With Carter Page, they went to the FISA court. They used 
the now famous dossier as part of the reason they were able to 
get the warrant and spy on Carter Page for the better part of a 
year. With Mr. Papadopoulos, they didn't go to the court. They 
used human sources, all kinds of--from about the moment 
Papadopoulos joins the Trump campaign, you got all these people 
all around the world starting to swirl around him. Names like 
Halper, Downer, Mifsud, Thompson, meeting in Rome, London, all 
kinds of places. The FBI even sent, even sent a lady posing as 
somebody else, went by the name Azra Turk, even dispatched her 
to London to spy on Mr. Papadopoulos. In one of these meetings, 
Mr. Papadopoulos is talking to a foreign diplomat, and he tells 
the diplomat Russians have dirt on Clinton. That diplomat then 
contacts the FBI, and the FBI opens an investigation based on 
that fact.
    You point this out on page 1 of the report. July 31st, 
2016, they open the investigation based on that piece of 
information. Diplomat tells Papadopoulos Russians have dirt--
excuse me, Papadopoulos tells the diplomat Russians have dirt 
on Clinton. The diplomat tells the FBI. What I am wondering is 
who told Papadopoulos? How did he find out?
    Mr. Mueller. I can't get into the evidentiary----
    Mr. Jordan. Yes, you can, because you wrote about it. You 
gave us the answer. Page 192 of the report you tell us who told 
him, Joseph Mifsud. Joseph Mifsud is the guy who told Joseph 
Papadopoulos, the mysterious professor who lives in Rome and 
London, works and teaches at two different universities; this 
is the guy who told Papadopoulos. He is the guy who starts it 
all. And when the FBI interviews him, he lies three times, and 
yet you don't charge him with a crime.
    You charge Rick Gates for false statements. You charge Paul 
Manafort for false statements. You charge Michael Cohen with 
false statements. You charge Michael Flynn, a three-star 
general, with false statements. But the guy who puts the 
country through this whole saga, starts it all--for 3 years we 
have lived this now--he lies and you guys don't charge him. And 
I am curious as to why.
    Mr. Mueller. Well, I can't get into it. And it is obvious I 
think that we can't get into charging decisions.
    Mr. Jordan. When the FBI interviewed him in February--the 
FBI interviews him in February. When the Special Counsel's 
Office interviewed Mifsud, did he lie to you guys too?
    Mr. Mueller. I can't get into that.
    Mr. Jordan. Did you interview Mifsud?
    Mr. Mueller. I can't get into that.
    Mr. Jordan. Is Mifsud Western intelligence or Russian 
intelligence?
    Mr. Mueller. I can't get into that.
    Mr. Jordan. A lot of things you can't get into. What is 
interesting: You can charge 13 Russians no one's ever heard of, 
no one's ever seen. No one's ever going to hear of them. No 
one's ever going to see them. You can charge them. You can 
charge all kinds of people who are around the President with 
false statements. But the guy who launches everything, the guy 
who puts this whole story in motion, you can't charge him. I 
think that is amazing.
    Mr. Mueller. I am not certain--I am not certain I agree 
with your characterization.
    Mr. Jordan. Well, I am reading from your report. Mifsud 
told Papadopoulos. Papadopoulos tells the diplomat. The 
diplomat tells the FBI. The FBI opens the investigation July 
31st, 2016. And here we are 3 years later, July of 2019. The 
country's been put through this, and the central figure who 
launches it all lies to us, and you guys don't hunt him down 
and interview him again, and you don't charge him with a crime.
    Now, here is the good news. Here is the good news. The 
President was falsely accused of conspiracy. The FBI does a 10-
month investigation. And James Comey, when we deposed him a 
year ago, told us at that point they had nothing. You do a 22-
month investigation. At the end of that 22 months, you find no 
conspiracy. And what do the Democrats want to do? They want to 
keep investigating. They want to keep going.
    Maybe a better course of action, maybe a better course of 
action is to figure out how the false accusations started. 
Maybe it is to go back and actually figure out why Joseph 
Mifsud was lying to the FBI. And here is the good news. Here is 
the good news. That is exactly what Bill Barr is doing, and 
thank goodness for that. That is exactly what the Attorney 
General and John Durham are doing. They are going to find out 
why we went through this 3-year----
    Chairman Nadler. The time of the gentleman----
    Mr. Jordan [continuing]. Saga and get to the bottom of it.
    Chairman Nadler. The time of the gentleman has expired.
    In a moment, we will take a very brief 5-minute break. 
First, I ask everyone in the room to please remain seated and 
quiet while the witness exits the room. I also want to announce 
to those in the audience that you may not be guaranteed your 
seat if you leave the hearing room at this time. At this time, 
the committee will stand in a very short recess.
    [Recess.]
    Chairman Nadler. People, please take their seats before the 
special counsel returns.
    The gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Mueller, Congressman Deutch addressed Trump's request 
to McGahn to fire you. Representative Bass talked about the 
President's request of McGahn to deny the fact that the 
President made that request.
    I want to pick up where they left off, and I want to pick 
up with the President's personal lawyer. In fact, there was 
evidence that the President's personal lawyer was alarmed at 
the prospect of the President meeting with Mr. McGahn to 
discuss Mr. McGahn's refusal to deny The New York Times report 
about the President trying to fire you, correct?
    Mr. Mueller. Correct.
    Mr. Richmond. In fact, the President's counsel was so 
alarmed by the prospect of the President's meeting with McGahn 
that he called Mr. McGahn's counsel and said that McGahn could 
not resign no matter what happened in the Oval Office that day, 
correct?
    Mr. Mueller. Correct.
    Mr. Richmond. So it is accurate to say that the President 
knew that he was asking McGahn to deny facts that McGahn, 
quote, had repeatedly said were accurate, unquote. Isn't that 
right?
    Mr. Mueller. Correct.
    Mr. Richmond. Your investigation also found, quote: By the 
time of the Oval Office meeting with the President, the 
President was aware, one, that McGahn did not think the story 
was false; two, did not want to issue a statement or create a 
written record denying facts that McGahn believed to be true. 
The President nevertheless persisted and asked McGahn to 
repudiate facts that McGahn had repeatedly said were accurate.
    Isn't that correct?
    Mr. Mueller. Generally true.
    Mr. Richmond. I believe that is on page 119. Thank you. In 
other words, the President was trying to force McGahn to say 
something that McGahn did not believe to be true.
    Mr. Mueller. That is accurate.
    Mr. Richmond. I want to reference you to a slide, and it is 
on page 120, and it says: Substantial evidence indicates that 
in repeatedly urging McGahn to dispute that he was ordered to 
have the special counsel terminated, the President acted for 
the purpose of influencing McGahn's account in order to deflect 
or prevent further scrutiny of the President's conduct towards 
the investigation.
    Mr. Mueller. That is accurate.
    Mr. Richmond. Can you explain what you meant there?
    Mr. Mueller. I am just going to leave it as it appears in 
the report.
    Mr. Richmond. So it is fair to say the President tried to 
protect himself by asking staff to falsify records relevant to 
an ongoing investigation?
    Mr. Mueller. I would say that is generally a summary.
    Mr. Richmond. Would you say that that action, the President 
tried to hamper the investigation by asking staff to falsify 
records relevant to your investigation?
    Mr. Mueller. I am just going to refer you to the report, if 
I could, for review of that episode.
    Mr. Richmond. Thank you. Also, the President's attempts to 
get McGahn to create a false written record were related to Mr. 
Trump's concerns about your obstruction of justice inquiry, 
correct?
    Mr. Mueller. I believe that to be true.
    Mr. Richmond. In fact, at that same Oval Office meeting, 
did the President also ask McGahn why he had told--quote, ``why 
he had told Special Counsel's Office investigators that the 
President told him to have you removed,'' unquote?
    Mr. Mueller. And what was the question, sir, if I might?
    Mr. Richmond. Let me go to the next one. The President, 
quote, criticized McGahn for telling your office about the June 
17, 2017, events when he told McGahn to have you removed, 
correct?
    Mr. Mueller. Correct.
    Mr. Richmond. In other words, the President was criticizing 
his White House counsel for telling law enforcement officials 
what he believed to be the truth.
    Mr. Mueller. I again go back to the text of the report.
    Mr. Richmond. Well, let me go a little bit further. Would 
it have been a crime if Mr. McGahn had lied to you about the 
President ordering him to fire you?
    Mr. Mueller. I don't want to speculate.
    Mr. Richmond. Okay. Is it true that you charged multiple 
people associated with the President for lying to you during 
your investigation?
    Mr. Mueller. That is accurate.
    Mr. Richmond. The President also complained that his staff 
were taking notes during the meeting about firing McGahn. Is 
that correct?
    Mr. Mueller. That is what the report says. Yeah, the 
report.
    Mr. Richmond. But, in fact, it is completely appropriate 
for the President's staff, especially his counsels, to take 
notes during a meeting, correct?
    Mr. Mueller. I rely on the wording of the report.
    Mr. Richmond. Well, thank you, Director Mueller, for your 
investigation into whether the President attempted to obstruct 
justice by ordering his White House counsel, Don McGahn, to lie 
to protect the President and then to create a false record 
about it. It is clear that any other person who engaged in such 
conduct would be charged with a crime. We will continue our 
investigation, and we will hold the President accountable 
because no one is above the law.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Florida.
    Mr. Gaetz. Director Mueller, can you state with confidence 
that the Steele dossier was not part of Russia's disinformation 
campaign?
    Mr. Mueller. As I said in my opening statement, that part 
of the building of the case predated me and by at least 10 
months.
    Mr. Gaetz. Paul Manafort's alleged crimes regarding tax 
evasion predated you. You had no problem charging them. As a 
matter of fact, this Steele dossier predated the Attorney 
General, and he didn't have any problem answering the question. 
When Senator Cornyn asked the Attorney General the exact 
question I asked you, Director, the Attorney General said, and 
I am quoting: No, I can't state that with confidence. And that 
is one of the areas I am reviewing. I am concerned about it, 
and I don't think it is entirely speculative.
    Now, if something is not entirely speculative, then it must 
have some factual basis, but you identify no factual basis 
regarding the dossier or the possibility that it was part of 
the Russia disinformation campaign.
    Now, Christopher Steele's reporting is referenced in your 
report. Steele reported to the FBI that senior Russian Foreign 
Ministry figures, along with other Russians, told him that 
there was--and I am quoting from the Steele dossier--extensive 
evidence of conspiracy between the Trump campaign team and the 
Kremlin.
    So here is my question: Did Russians really tell that to 
Christopher Steele, or did he just make it all up, and was he 
lying to the FBI?
    Mr. Mueller. Let me back up a second, if I could, and say, 
as I said earlier with regard to Steele, that that is beyond my 
purview.
    Mr. Gaetz. No, it is exactly your purview, Director 
Mueller, and here is why: Only one of two things is possible, 
right? Either Steele made this whole thing up and there were 
never any Russians telling him of this vast criminal conspiracy 
that you didn't find, or Russians lied to Steele. Now, if 
Russians were lying to Steele to undermine our confidence in 
our duly elected President, that would seem to be precisely 
your purview because you stated in your opening that the 
organizing principle was to fully and thoroughly investigate 
Russia's interference. But you weren't interested in whether or 
not the Russians were interfering through Christopher Steele. 
And if Steele was lying, then you should have charged him with 
lying, like you charged a variety of other people. But you say 
nothing about this in your report.
    Mr. Mueller. Well, sir----
    Mr. Gaetz. Meanwhile, Director, you are quite loquacious on 
other topics. You write 3,500 words about the June 9 meeting 
between the Trump campaign and Russian lawyer Veselnitskaya. 
You write on page 103 of your report that the President's legal 
team suggested--and I am quoting from your report--that the 
meeting might have been a setup by individuals working with the 
firm that produced the Steele reporting.
    So I am going to ask you a very easy question, Director 
Mueller. On the week of June 9, who did Russian lawyer 
Veselnitskaya meet with more frequently, the Trump campaign or 
Glenn Simpson, who was functionally acting as an operative for 
the Democratic National Committee?
    Mr. Mueller. Well, what I think is missing here is the fact 
that this is under investigation elsewhere in the Justice 
Department----
    Mr. Gaetz. I----
    Mr. Mueller [continuing]. And if I can finish, sir, and if 
I can finish, sir--and consequently, it is not within my 
purview. The Department of Justice and FBI should be responsive 
to questions on this particular issue.
    Mr. Gaetz. It is absurd to suggest that an operative for 
the Democrats was meeting with this Russian lawyer the day 
before and the day after the Trump Tower meeting, and yet that 
is not something you reference.
    Now, Glenn Simpson testified under oath he had dinner with 
Veselnitskaya the day before and the day after this meeting 
with the Trump team. Do you have any basis, as you sit here 
today, to believe that Steele was lying?
    Mr. Mueller. As I said before and I will say again, it is 
not my purview. Others are investigating what you address.
    Mr. Gaetz. So it is not your purview to look into whether 
or not Steele is lying. It is not your purview to look into 
whether or not anti-Trump Russians are lying to Steele. And it 
is not your purview to look at whether or not Glenn Simpson was 
meeting with the Russians the day before and the day after you 
write 3,500 words about the Trump campaign meeting.
    So I am wondering how these decisions are guided. I look at 
the inspector general's report. I am citing from page 404 of 
the inspector general's report. It states: Page stated: Trump's 
not ever going to be President, right? Right. Strzok replied: 
No, he is not. We will stop it.
    Also in the inspector general's report, there is someone 
identified as attorney No. 2. Attorney No. 2--this is page 
419--replied, ``Hell no,'' and then added, ``Viva la 
resistance.''
    Attorney No. 2 in the inspector general's report and Strzok 
both worked on your team, didn't they?
    Mr. Mueller. Pardon me, can you----
    Mr. Gaetz. They both worked on your team, didn't they?
    Mr. Mueller. I know--I heard Strzok. Who else were you 
talking about?
    Mr. Gaetz. Attorney No. 2 identified in the inspector 
general's report.
    Mr. Mueller. And the question was?
    Mr. Gaetz. Did he work for you? The guy who said, ``Viva la 
resistance.''
    Mr. Mueller. Peter Strzok worked for me for a period of 
time, yes.
    Mr. Gaetz. Yeah, but so did the other guy that said, ``Viva 
la resistance.'' And here is what I am kind of noticing, 
Director Mueller: When people associated with Trump lied, you 
throw the book at them. When Christopher Steele lied, nothing. 
And so it seems to be that when Glenn Simpson met with 
Russians, nothing. When the Trump campaign met with Russians, 
3,500 words. And maybe the reason why there are these 
discrepancies in what you focused on is because the team was so 
biased----
    Chairman Nadler. The time of the----
    Mr. Gaetz [continuing]. Pledged to the resistance, pledged 
to stop Trump.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Jeffries of New York is recognized.
    Mr. Jeffries. Mr. Mueller, obstruction of justice is a 
serious crime that strikes at the core of an investigator's 
effort to find the truth, correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. The crime of obstruction of justice has three 
elements, true?
    Mr. Mueller. True.
    Mr. Jeffries. The first element is an obstructive act, 
correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. An obstructive act could include taking an 
action that would delay or interfere with an ongoing 
investigation, as set forth in Volume II, page 87 and 88 of 
your report, true?
    Mr. Mueller. I am sorry. Could you again repeat the 
question?
    Mr. Jeffries. An obstructive act could include taking an 
action that would delay or interfere with an ongoing 
investigation.
    Mr. Mueller. That is true.
    Mr. Jeffries. Your investigation found evidence that 
President Trump took steps to terminate the special counsel, 
correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. Mr. Mueller, does ordering the termination of 
the head of a criminal investigation constitute an obstructive 
act?
    Mr. Mueller. That would be--I would refer you to the report 
on that.
    Mr. Jeffries. Let me refer you to page 87 and 88 of Volume 
II, where you conclude: The attempt to remove the special 
counsel would qualify as an obstructive act if it would 
naturally obstruct the investigation and any grand jury 
proceedings that might flow from the inquiry, correct?
    Mr. Mueller. Yes. I have got that now. Thank you.
    Mr. Jeffries. Thank you. The second element of obstruction 
of justice is the presence of an obstructive act in connection 
with an official proceeding, true?
    Mr. Mueller. True.
    Mr. Jeffries. Does the special counsel's criminal 
investigation into the potential wrongdoing of Donald Trump 
constitute an official proceeding?
    Mr. Mueller. And that is an area which I cannot get into.
    Mr. Jeffries. Okay. President Trump tweeted on June 16, 
2017, quote: I am being investigated for firing the FBI 
Director by the man who told me to fire the FBI Director. Witch 
hunt.
    The June 16th tweet just read--was cited on page 89 in 
Volume II--constitutes a public acknowledgement by President 
Trump that he was under criminal investigation, correct?
    Mr. Mueller. I think generally correct.
    Mr. Jeffries. One day later, on Saturday, June 17th, 
President Trump called White House Counsel Don McGahn at home 
and directed him to fire the special counsel, true?
    Mr. Mueller. I believe it to be true. I think we have 
been--I may have stated in response to questions some----
    Mr. Jeffries. That is correct. President Trump told Don 
McGahn, quote, Mueller has to go, close quote. Correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. Your report found, on page 89, Volume II, 
that substantial evidence indicates that, by June 17th, the 
President knew his conduct was under investigation by a Federal 
prosecutor who could present any evidence of Federal crimes to 
a grand jury, true?
    Mr. Mueller. True.
    Mr. Jeffries. The third element--the second element having 
just been satisfied, the third element of the crime of 
obstruction of justice is corrupt intent, true?
    Mr. Mueller. True.
    Mr. Jeffries. Corrupt intent exists if the President acted 
to obstruct an official proceeding for the improper purpose of 
protecting his own interests, correct?
    Mr. Mueller. That is generally correct.
    Mr. Jeffries. Thank you.
    Mr. Mueller. The only thing I would say is we're going 
through the three elements of the proof of the obstruction of 
justice charges when the fact of the matter is we got--excuse 
me, just one second.
    Mr. Jeffries. Thank you. Mr. Mueller, let me move on in the 
interest of time. Upon learning about the appointment of the 
special counsel, your investigation found that Donald Trump 
stated to the then Attorney General, quote: Oh my God, this is 
terrible. This is the end of my Presidency. I am F'd.
    Is that correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. Is it fair to say that Donald Trump viewed 
the special counsel's investigation into his conduct as adverse 
to his own interests?
    Mr. Mueller. I think that generally is true.
    Mr. Jeffries. The investigation found evidence, quote, that 
the President knew that he should not have directed Don McGahn 
to fire the special counsel. Correct?
    Mr. Mueller. And where do you have that quote?
    Mr. Jeffries. Page 90, Volume II: There is evidence that 
the President knew he should not have made those calls to 
McGahn, close quote.
    Mr. Mueller. I see that. Yes, that is accurate.
    Mr. Jeffries. The investigation also found substantial 
evidence that President Trump repeatedly urged McGahn to 
dispute that he was ordered to have the special counsel 
terminated, correct?
    Mr. Mueller. Correct.
    Mr. Jeffries. The investigation found substantial evidence 
that, when the President ordered Don McGahn to fire the special 
counsel and then lie about it, Donald Trump, one, committed an 
obstructive act; two, connected to an official proceeding; 
three, did so with corrupt intent.
    Those are the elements of obstruction of justice. This is 
the United States of America. No one is above the law, no one. 
The President must be held accountable one way or the other.
    Mr. Mueller. Let me just say, if I might, I don't subscribe 
necessarily to your--the way you analyze that. I am not saying 
it is out of the ballpark, but I am not supportive of that 
analytical charge.
    Mr. Jeffries. Thank you.
    Chairman Nadler. The gentleman from Colorado.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Mueller, over here.
    Mr. Mueller. Hi.
    Mr. Buck. Hi. I want to start by thanking you for your 
service. You joined the Marines and led a rifle platoon in 
Vietnam, where you earned a bronze star, purple heart, and 
other commendations. You served as an assistant United States 
attorney leading the homicide unit here in D.C., U.S. attorney 
for the District of Massachusetts and later Northern District 
of California, Assistant Attorney General for DOJ's Criminal 
Division, and the FBI Director. So thank you, I appreciate 
that.
    But having reviewed your biography, it puzzles me why you 
handled your duties in this case the way you did. The report 
contradicts what you taught young attorneys at the Department 
of Justice, including to ensure that every defendant is treated 
fairly, or, as Justice Sutherland said in the Berger case, a 
prosecutor is not the representative of an ordinary party to a 
controversy but of a sovereignty whose interest in a criminal 
prosecution is not that it shall win a case but that justice 
shall be done and that the prosecutor may strike hard blows, 
but he is not at liberty to strike foul ones.
    By listing the 10 factual situations and not reaching a 
conclusion about the merits of the case, you unfairly shifted 
the burden of proof to the President, forcing him to prove his 
innocence while denying him a legal forum to do so. And I have 
never heard of a prosecutor declining a case and then holding a 
press conference to talk about the defendant. You noted eight 
times in your report that you had a legal duty under the 
regulations to either prosecute or decline charges. Despite 
this, you disregarded that duty.
    As a former prosecutor, I am also troubled with your legal 
analysis. You discussed 10 separate factual patterns involving 
alleged obstruction, and then you failed to separately apply 
the elements of the applicable statutes.
    I looked at the 10 factual situations, and I read the case 
law. And I have to tell you, just looking at the Flynn matter, 
for example, the four statutes that you cited for possible 
obstruction, 1503, 1505, 1512(b)(3), and 1512(c)(2), when I 
look at those concerning the Flynn matter, 1503 is inapplicable 
because there wasn't a grand jury or trial jury impaneled, and 
Director Comey was not an officer of the court as defined by 
the statute.
    Section 1505 criminalizes acts that would obstruct or 
impede administrative proceedings as those before Congress or 
an administrative agency. The Department of Justice criminal 
resource manual states that the FBI investigation is not a 
pending proceeding.
    1512(b)(3) talks about intimidation, threats of force to 
tamper with a witness. General Flynn at the time was not a 
witness, and certainly Director Comey was not a witness.
    And 1512(c)(2) talks about tampering with a record. And as 
Joe Biden described the statute as it was being debated on the 
Senate floor, he called this a statute criminalizing document 
shredding, and there is nothing in your report that alleges 
that the President destroyed any evidence.
    So what I have to ask you and what I think people are 
working around in this hearing is--let me lay a little 
foundation for it. The ethical rules require that a prosecutor 
have a reasonable probability of conviction to bring a charge. 
Is that correct?
    Mr. Mueller. It sounds generally accurate.
    Mr. Buck. And the regulations concerning your job as 
special counsel state that your job is to provide the Attorney 
General with a confidential report explaining the prosecution 
or declination decisions reached by your office.
    You recommended declining prosecution of President Trump 
and anyone associated with his campaign because there was 
insufficient evidence to convict for a charge of conspiracy 
with Russian interference in the 2016 election. Is that fair?
    Mr. Mueller. That is fair.
    Mr. Buck. Was there sufficient evidence to convict 
President Trump or anyone else with obstruction of justice?
    Mr. Mueller. We did not make that calculation.
    Mr. Buck. How could you not have made the calculation with 
the regulation----
    Mr. Mueller. As the OLC opinion, the OLC opinion, Office of 
Legal Counsel, indicates that we cannot indict a sitting 
President. So one of the tools that a prosecutor would use is 
not there.
    Mr. Buck. Okay. But let me just stop. You made the decision 
on the Russian interference. You couldn't have indicted the 
President on that, and you made the decision on that, but when 
it came to obstruction, you threw a bunch of stuff up against 
the wall to see what would stick, and that is really unfair.
    Mr. Mueller. I would not agree to that characterization at 
all. What we did is provide to the Attorney General, in the 
form of a confidential memorandum, our understanding of the 
case, those cases that were brought, those cases that were 
declined, and that one case where the President cannot be 
charged with a crime.
    Mr. Buck. Okay. Could you charge the President with a crime 
after he left office?
    Mr. Mueller. Yes.
    Mr. Buck. You believe that he committed--you could charge 
the President of the United States with obstruction of justice 
after he left office?
    Mr. Mueller. Yes.
    Mr. Buck. Ethically, under the ethical standards?
    Mr. Mueller. Well, I am not certain because I haven't 
looked at the ethical standards, but the OLC opinion says that 
the prosecutor, while he cannot bring a charge against a 
sitting President, nonetheless, he can continue the 
investigation to see if there are any other persons who might 
be drawn into the conspiracy.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Rhode Island.
    Mr. Cicilline. Director, as you know, we are specifically 
focusing on five separate obstruction episodes here today. I 
would like to ask you about the third episode. It is the 
section of your report entitled ``The President's efforts to 
curtail the special counsel investigation,'' beginning at page 
90. And by ``curtail,'' you mean limit, correct?
    Mr. Mueller. Correct.
    Mr. Cicilline. My colleagues have walked through how the 
President tried to have you fired through the White House 
counsel, and because Mr. McGahn refused the order, the 
President asked others to help limit your investigation. Is 
that correct?
    Mr. Mueller. Correct.
    Mr. Cicilline. And was Corey Lewandowski one such 
individual?
    Mr. Mueller. Again, can you remind me what----
    Mr. Cicilline. Well, Corey Lewandowski is the President's 
former campaign manager, correct?
    Mr. Mueller. Correct.
    Mr. Cicilline. Did he have any official position with the 
Trump administration?
    Mr. Mueller. I don't believe so.
    Mr. Cicilline. Your report describes an incident in the 
Oval Office involving Mr. Lewandowski on June 19, 2017, at 
Volume II, page 91. Is that correct.
    Mr. Mueller. I am sorry. What is the citation, sir?
    Mr. Cicilline. Page 91.
    Mr. Mueller. Of the second volume?
    Mr. Cicilline. Yes.
    Mr. Mueller. And where?
    Mr. Cicilline. A meeting in the Oval Office between Mr. 
Lewandowski and the President.
    Mr. Mueller. Okay.
    Mr. Cicilline. And that was just 2 days after the President 
called Don McGahn at home and ordered him to fire you. Is that 
correct?
    Mr. Mueller. Apparently so.
    Mr. Cicilline. So, right after his White House counsel, Mr. 
McGahn, refused to follow the President's order to fire you, 
the President came up with a new plan, and that was to go 
around to all of his senior advisers and government aides to 
have a private citizen try to limit your investigation.
    What did the President tell Mr. Lewandowski to do? Do you 
recall he told him--he dictated a message to Mr. Lewandowski 
for Attorney General Sessions and asked him to write it down. 
Is that correct?
    Mr. Mueller. True.
    Mr. Cicilline. And did you and your team see this 
handwritten message?
    Mr. Mueller. I am not going to get into what we may or may 
not have included in our investigation.
    Mr. Cicilline. Okay. The message directed Sessions to 
give--and I am quoting from your report--to give a public 
speech saying that he planned to meet with the special 
prosecutor to explain this is very unfair and let the special 
prosecutor move forward with investigating election meddling 
for future elections. That is at page 91. Is that correct?
    Mr. Mueller. Yes, I see that. Thank you. Yes, it is.
    Mr. Cicilline. In other words, Mr. Lewandowski, a private 
citizen, was instructed by the President of the United States 
to deliver a message from the President to the Attorney General 
that directed him to limit your investigation, correct?
    Mr. Mueller. Correct.
    Mr. Cicilline. And at this time, Mr. Sessions was still 
recused from oversight of your investigation, correct?
    Mr. Mueller. I am sorry. Could you restate that?
    Mr. Cicilline. The Attorney General was recused from 
oversight.
    Mr. Mueller. Yes, yes.
    Mr. Cicilline. So the Attorney General would have had to 
violate his own Department's rules in order to comply with the 
President's order, correct?
    Mr. Mueller. Well, I am not going to get into the 
subsidiary details. I just refer you again to page 91, 92 of 
the report.
    Mr. Cicilline. And if the Attorney General had followed 
through with the President's request, Mr. Mueller, it would 
have effectively ended your investigation into the President 
and his campaign, as you note on page 97, correct?
    Mr. Mueller. Could you----
    Mr. Cicilline. At page 97, you write, and I quote: Taken 
together, the President's directives indicate that Sessions was 
being instructed to tell the special counsel to end the 
existing investigation into the President and his campaign, 
with the special counsel being permitted to move forward with 
investigating election meddling for future elections. Is that 
correct?
    Mr. Mueller. Generally true, yes, sir.
    Mr. Cicilline. And an unsuccessful attempt to obstruct 
justice is still a crime. Is that correct?
    Mr. Mueller. That is correct.
    Mr. Cicilline. And Mr. Lewandowski tried to meet with the 
Attorney General. Is that right?
    Mr. Mueller. True.
    Mr. Cicilline. And he tried to meet with him in his office 
so he would be certain there wasn't a public log of the visit.
    Mr. Mueller. According to what we gathered for the report.
    Mr. Cicilline. And the meeting never happened and the 
President raised the issue again with Mr. Lewandowski. And this 
time, he said, and I quote, if Sessions does not meet with you, 
Lewandowski should tell Sessions he was fired, correct?
    Mr. Mueller. Correct.
    Mr. Cicilline. So immediately following the meeting with 
the President, Lewandowski then asked Mr. Dearborn to deliver 
the message, who is the former chief of staff to Mr. Sessions. 
And Mr. Dearborn refuses to deliver it because he doesn't feel 
comfortable. Isn't that correct?
    Mr. Mueller. Generally correct, yes.
    Mr. Cicilline. So, just so we are clear, Mr. Mueller, 2 
days after the White House Counsel Don McGahn refused to carry 
out the President's order to fire you, the President directed a 
private citizen to tell the Attorney General of the United 
States, who was recused at the time, to limit your 
investigation to future elections, effectively ending your 
investigation into the 2016 Trump campaign. Is that correct?
    Mr. Mueller. I am not going to adopt your characterization. 
I will say that the facts as laid out in the report are 
accurate.
    Mr. Cicilline. Well, Mr. Mueller, in your report you, in 
fact, write at page 99-97: Substantial evidence indicates that 
the President's effort to have Sessions limit the scope of the 
special counsel's investigation to future election interference 
was intended to prevent further investigative scrutiny of the 
President and his campaign conduct. Is that correct?
    Mr. Mueller. Generally.
    Mr. Cicilline. And so, Mr. Mueller, you have seen a letter 
where a thousand former Republican and Democratic Federal 
prosecutors have read your report and said, anyone but the 
President who committed those acts would be charged with 
obstruction of justice. Do you agree with those former 
colleagues, a thousand prosecutors who came to that conclusion?
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Arizona.
    Mr. Biggs. Thank you, Mr. Chairman.
    Mr. Mueller, you guys, your team wrote in the report, 
quote--this is at the top of page 2, Volume I, also on page 
173, by the way. You said that you had come to the conclusion 
that, quote: The investigation did not establish that members 
of the Trump campaign conspired or coordinated with the Russian 
Government in its election interference activities, close 
quote.
    That is an accurate statement, right?
    Mr. Mueller. That is accurate.
    Mr. Biggs. And I am curious, when did you personally come 
to that conclusion?
    Mr. Mueller. Can you remind me which paragraph you are 
referring to?
    Mr. Biggs. Top of page 2.
    Mr. Mueller. On two.
    Mr. Biggs. Volume I.
    Mr. Mueller. Okay. And exactly which paragraph are you 
looking at on 2?
    Mr. Biggs. The investigation did not establish----
    Mr. Mueller. Of course. I see it, yes. What was your 
question?
    Mr. Biggs. My question now is, when did you personally 
reach that conclusion?
    Mr. Mueller. Well, we were ongoing for 2 years.
    Mr. Biggs. Right, you were ongoing, and you wrote it at 
some point during that 2-year period, but at some point, you 
had to come to a conclusion that I don't think there--that 
there is not a conspiracy going on here. There was no 
conspiracy between this President. I am not talking about the 
rest of the President's team. I am talking about this President 
and the Russians.
    Mr. Mueller. As you understand, in developing a criminal 
case, you get pieces of information, pieces of information, 
witnesses, and the like as you make your case.
    Mr. Biggs. Right.
    Mr. Mueller. And when you make a decision on a particular 
case depends on a number of factors.
    Mr. Biggs. Right, I understand.
    Mr. Mueller. So I cannot say specifically that we reached a 
decision on a particular defendant at a particular point in 
time.
    Mr. Biggs. But it was sometime well before you wrote the 
report. Fair enough? I mean, you wrote the report dealing with 
a whole myriad of issues. Certainly, at some time prior to that 
report is when you reached the decision that, okay, with regard 
to the President himself, I don't find anything here. Fair 
enough?
    Mr. Mueller. Well, I'm not certain I do agree with that.
    Mr. Biggs. So you waited till the last minute when you were 
actually writing the report and say, oh, okay----
    Mr. Mueller. No. But there were various aspects of the 
development and----
    Mr. Biggs. Sure. And that's my point. There are various 
aspects that happen, but somewhere along the pike, you come to 
a conclusion there's nothing--there's no there there for this 
defendant. Isn't that right?
    Mr. Mueller. I can't--I can't speak to that.
    Mr. Biggs. You can't say when. Fair enough.
    Mr. Zebley. Mr. Biggs----
    Mr. Biggs. So--no, I'm not--no. I'm asking the sworn 
witness.
    Mr. Mueller, the evidence suggests that on May 10, 2017, at 
approximately 7:45 a.m., 6 days before the DAG, the Deputy 
Attorney General, appointed you special counsel, Mr. Rosenstein 
called you and mentioned the appointment of the special 
counsel. Not necessarily that you'd be appointed, but that you 
had a discussion to that. Is that true? May 10, 2017.
    Mr. Mueller. I don't have any--no, I don't have any 
knowledge of that occurring.
    Mr. Biggs. You don't have any knowledge or you don't 
recall?
    Mr. Mueller. I don't have any knowledge.
    Mr. Biggs. The evidence also suggests----
    Mr. Mueller. Given that what I saw you do, are you 
questioning that?
    Mr. Biggs. Well, I just find it intriguing. Let me just 
tell you that there's evidence that suggests that that phone 
call took place and that that is what was said.
    So let's move to the next question. The evidence suggests 
that also on May 12, 2017, 5 days before the DAG appointed you 
special counsel, you met with Mr. Rosenstein in person. Did you 
discuss the appointment of the special counsel then, not 
necessarily you, but that there would be a special counsel?
    Mr. Mueller. I've gone into waters that don't allow me to 
give you an answer to that particular question. It relates to 
the internal discussions he would have in terms of indicting an 
individual.
    Mr. Biggs. This has nothing to do with the indictment. It 
has to do with special counsel and whether you discussed that 
with Mr. Rosenstein.
    The evidence also suggests that on May 13, 4 days before 
you were appointed special counsel, you met with attorney--
former Attorney General Sessions and Rosenstein, and you spoke 
about special counsel. Do you remember that?
    Mr. Mueller. Not offhand, no.
    Mr. Biggs. Okay. And on May 16, the day before you were 
appointed special counsel, you met with the President and Rod 
Rosenstein. Do you remember having that meeting?
    Mr. Mueller. Yes.
    Mr. Biggs. And discussion of the position of FBI Director 
took place. Do you remember that?
    Mr. Mueller. Yes.
    Mr. Biggs. And did you discuss at any time in that meeting 
Mr. Comey's termination?
    Mr. Mueller. No.
    Mr. Biggs. Did you discuss at any time in that meeting the 
potential appointment of a special counsel, not necessarily 
you, but just in general terms?
    Mr. Mueller. I can't get into the discussions on that.
    Mr. Biggs. How many times did you speak to Mr. Rosenstein 
before May 17, which is the day you got appointed, regarding 
the appointment of special counsel? How many times prior to 
that did you discuss that?
    Mr. Mueller. I can't tell you how many times.
    Mr. Biggs. Is that because you don't recall or you just----
    Mr. Mueller. I do not recall.
    Mr. Biggs. Okay. Thank you.
    How many times did you speak with Mr. Comey about any 
investigations pertaining to Russia prior to May 17, 2017? Did 
you have any?
    Mr. Mueller. None at all.
    Mr. Biggs. Zero.
    Mr. Mueller. Zero.
    Mr. Biggs. Okay. My time has expired, so----
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from California.
    Mr. Swalwell. Director Mueller, going back to the 
President's obstruction via Corey Lewandowski, it was 
referenced that a thousand former prosecutors who served under 
Republican and Democratic administrations with 12,000 years of 
Federal service wrote a letter regarding the President's 
conduct. Are you familiar with that letter?
    Mr. Mueller. I've read about that letter, yes.
    Mr. Swalwell. And some of the individuals who signed that 
letter, the statement of former prosecutors, are people you 
worked with. Is that right?
    Mr. Mueller. Quite probably, yes.
    Mr. Swalwell. People that you respect?
    Mr. Mueller. Quite probably, yes.
    Mr. Swalwell. And in that letter, they said all of this 
conduct trying to control and impede the investigation against 
the President by leveraging his authority over others is 
similar to conduct we have seen charged against other public 
officials and people in powerful positions.
    Are they wrong?
    Mr. Mueller. They had a different case.
    Mr. Swalwell. Do you want to sign that letter, Director 
Mueller?
    Mr. Mueller. They had a different case.
    Mr. Swalwell. Director Mueller, thank you for your service 
going all the way back to the sixties when you courageously 
served in Vietnam. Because I have a seat on the Intelligence 
Committee, I will have questions later. And because of our 
limited time, I will ask to enter this letter into the record 
under unanimous consent.
    Chairman Nadler. Without objection.
    [The information follows:]
      

 MR. SWALWELL FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Swalwell. And I yield to my colleague from California, 
Mr. Lieu.
    Mr. Lieu. Thank you, Director Mueller, for your long 
history of service to our country, including your service as a 
Marine where you earned a Bronze Star with a V device.
    I'd like to now turn to the elements of obstruction of 
justice as applied to the President's attempts to curtail your 
investigation.
    The first element of obstruction of justice requires an 
obstructive act, correct?
    Mr. Mueller. Correct.
    Mr. Lieu. Okay. I'd like to direct you to page 97 of Volume 
II of your report. And you wrote there on page 97, quote, 
Sessions was being instructed to tell the special counsel to 
end the existing investigation into the President and his 
campaign, unquote. That's in the report, correct?
    Mr. Mueller. Correct.
    Mr. Lieu. That would be evidence of an obstructive act 
because it would naturally obstruct the investigation, correct?
    Mr. Mueller. Correct.
    Mr. Lieu. Okay. Let's turn now to the second element of the 
crime of obstruction of justice which requires a nexus to an 
official proceeding. Again, I'm going to direct you to page 97, 
the same page in Volume II, and you wrote, quote, by the time 
the President's initial one-on-one meeting with Lewandowski on 
June 19, 2017, the existence of a grand jury investigation 
supervised by the special counsel was public knowledge.
    That's in the report, correct?
    Mr. Mueller. Correct.
    Mr. Lieu. That would constitute evidence of a nexus to an 
official proceeding because a grand jury investigation is an 
official proceeding, correct?
    Mr. Mueller. Yes.
    Mr. Lieu. Okay. I'd like to now turn to the final element 
of the crime of obstruction of justice. On that same page, page 
97, do you see where there is an intent section on that page?
    Mr. Mueller. I do see that.
    Mr. Lieu. All right. Would you be willing to read the first 
sentence?
    Mr. Mueller. And that was starting with?
    Mr. Lieu. Substantial evidence.
    Mr. Mueller. Indicates that the President's?
    Mr. Lieu. If you could read that first sentence. Would you 
be willing to do that?
    Mr. Mueller. I'm happy to have you read it.
    Mr. Lieu. Okay. I will read it then.
    You wrote, quote, substantial evidence indicates that the 
President's effort to have Sessions limit the scope of the 
special counsel's investigation to future election interference 
was intended to prevent further investigative scrutiny of the 
President's and his campaign's conduct, unquote.
    That's in the report, correct?
    Mr. Mueller. That is in the report. And I rely what's in 
the report to indicate what's happening in the paragraphs that 
we've been discussing.
    Mr. Lieu. Thank you.
    So to recap what we've heard, we have heard today that the 
President ordered former White House Counsel Don McGahn to fire 
you. The President ordered Don McGahn to then cover that up and 
create a false paper trail. And now we've heard the President 
ordered Corey Lewandowski to tell Jeff Sessions to limit your 
investigation so that he, you, stop investigating the 
President.
    I believe a reasonable person looking at these facts could 
conclude that all three elements of the crime of obstruction of 
justice have been met. And I would like to ask you, the reason, 
again, that you did not indict Donald Trump is because of OLC 
opinion stating that you cannot indict a sitting President, 
correct?
    Mr. Mueller. That is correct.\1\
---------------------------------------------------------------------------
    \1\ Mr. Mueller requested that the Committee include a reference 
here to testimony he gave at a hearing of the U.S. House of 
Representatives Permanent Select Committee on Intelligence on July 24, 
2019, titled Former Special Counsel Robert S. Mueller III on the 
Investigation into Russian Interference in the 2016 Presidential 
Election. His testimony is as follows: ``I wanted to go back to one 
thing that was said this morning by Mr. Lieu. It was said, and I quote, 
`you didn't charge the president because of the OLC opinion.' That is 
not the correct way to say it. As we say in the report and as I said in 
the opening, we did not reach determination as to whether the president 
committed a crime.''
---------------------------------------------------------------------------
    Mr. Lieu. The fact that the orders by the President were 
not carried out, that is not a defense to obstruction of 
justice because the statute itself is quite broad. It says that 
as long as you endeavor or attempt to obstruct justice, that 
would also constitute a crime.
    Mr. Mueller. I'm not going to get into that at this 
juncture.
    Mr. Lieu. Okay. Thank you.
    And based on the evidence that we have heard today, I 
believe a reasonable person could conclude that at least three 
crimes of obstruction of justice by the President occurred. 
We're going to hear about two additional crimes, and that will 
be the witness tamperings of Michael Cohen and Paul Manafort.
    I yield back.
    Mr. Mueller. The only thing I want to add is that on going 
through the elements with you do not mean--or does not mean 
that I subscribe to what you're trying to prove through those 
elements.
    Chairman Nadler. The time of the gentleman has expired.
    The gentlelady from Arizona.
    I'm sorry. The gentleman from California.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Mueller, over here. Thanks for joining us today. You 
had three discussions with Rod Rosenstein about your 
appointment as special counsel: May 10, May 12, and May 13, 
correct?
    Mr. Mueller. If you say so. I have no reason to dispute 
that.
    Mr. McClintock. Then you met with the President on the 16th 
with Rod Rosenstein present. And then on the 17th, you were 
formally appointed as special counsel. Were you meeting with 
the President on the 16th with knowledge that you were under 
consideration for appointment to special counsel?
    Mr. Mueller. I did not believe I was under consideration 
for counsel.\2\ I had served two terms as FBI Director----
---------------------------------------------------------------------------
    \2\ Mr. Mueller requested this be changed to FBI Director.
---------------------------------------------------------------------------
    Mr. McClintock. The answer is no.
    Mr. Mueller. The answer is no.\3\
---------------------------------------------------------------------------
    \3\ Mr. Mueller requested clarification that he is referring to the 
position of FBI Director.
---------------------------------------------------------------------------
    Mr. McClintock. Greg Jarrett describes your office as the 
team of partisans. And as additional information is coming to 
light, there's a growing concern that political bias caused 
important facts to be omitted from your report in order to cast 
the President unfairly in a negative light. For example, John 
Dowd, the President's lawyer, leaves an message with Michael 
Flynn's lawyer on November 17 of--November of 2017. The edited 
version in your report makes it appear that he was improperly 
asking for confidential information, and that's all we know 
from your report, except that the judge in the Flynn case 
ordered the entire transcript released in which Dowd makes it 
crystal clear that's not what he was suggesting.
    So my question is, why did you edit the transcript to hide 
the exculpatory part of the message?
    Mr. Mueller. Well, I'm not sure I would agree with your 
characterization that we did anything to hide.
    Mr. McClintock. Well, you omitted it. You quoted the part 
where he says we need some kind of heads-up just for the sake 
of protecting all of our interests, if we can, but you omitted 
the portion where he says without giving up any confidential 
information.
    Mr. Mueller. Well, I'm not going to go further in terms of 
discussing the----
    Mr. McClintock. Let's go on. You extensively discussed 
Konstantin Kilimnik's activities with Paul Manafort. And you 
describe him as, quote, a Russian-Ukrainian political 
consultant and long-time employee of Paul Manafort assessed by 
the FBI to have ties to Russian intelligence. And, again, 
that's all we know from your report, except we've since learned 
from news articles that Kilimnik was actually a U.S. State 
Department intelligence source, yet nowhere in your report is 
he so identified. Why was that fact omitted?
    Mr. Mueller. I don't necessarily credit what you're saying 
occurred.
    Mr. McClintock. Were you aware that Kilimnik was a U.S. 
State Department source?
    Mr. Mueller. I'm not going to go into the ins and outs--I'm 
not going to go into the ins and outs of what we had in the 
course of our investigation.
    Mr. McClintock. Did you interview Konstantin Kilimnik?
    Mr. Mueller. Pardon?
    Mr. McClintock. Did you interview Konstantin Kilimnik?
    Mr. Mueller. I can't go into the discussion of our 
investigative moves.
    Mr. McClintock. And yet that is the basis of your report. 
Again, the problem we're having is we have to rely on your 
report for an accurate reflection of the evidence, and we're 
starting to find out that's not true.
    For example, your report famously links Russian internet 
troll farms with the Russian Government. Yet at a hearing on 
May 28 in the Concord Management IRA prosecution that you 
initiated, the judge excoriated both you and Mr. Barr for 
producing no evidence to support this claim. Why did you 
suggest Russia was responsible for the troll farms, when in 
court you've been unable to produce any evidence to support it?
    Mr. Mueller. Well, I'm not going to get into that any 
further than I already have.
    Mr. McClintock. But you have left the clear impression 
throughout the country through your report that it was the 
Russian Government behind the troll farms, and yet when you're 
called upon to provide actual evidence in court, you fail to do 
so.
    Mr. Mueller. Well, again, I dispute your characterization 
of what occurred in that proceeding.
    Mr. McClintock. In fact, the judge considered holding the 
prosecutors in criminal contempt. She backed off only after 
your hastily called press conference the next day in which you 
retroactively made the distinction between the Russian 
Government and the Russia troll farms. Did your press 
conference of May 29 have anything to do with the threat to 
hold your prosecutors in contempt the previous day for publicly 
misrepresenting the evidence?
    Mr. Mueller. What was the question?
    Mr. McClintock. The question is, did your May 29 press 
conference have anything to do with the fact that the previous 
day, the judge threatened to hold your prosecutors in contempt 
for misrepresenting evidence?
    Mr. Mueller. No.
    Mr. McClintock. Now, the fundamental problem is, as I said, 
we've got to take your word. Your team faithfully, accurately, 
impartially, and completely described all of the underlying 
evidence in the Mueller report, and we're finding more and more 
instances where this just isn't the case. And it's starting to 
look like, you know, having desperately tried and failed to 
make a legal case against the President, you made a political 
case instead. You put it in a paper sack, lit it on fire, 
dropped it on our porch, rang the doorbell and ran.
    Mr. Mueller. I don't think you reviewed a report that is as 
thorough, as fair, as consistent as the report that we have in 
front of us.
    Mr. McClintock. Then why is contradictory information----
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Maryland is recognized.
    Mr. Raskin. Director Mueller, let's go to a fourth episode 
of obstruction of justice in the form of witness tampering, 
which is urging witnesses not to cooperate with law 
enforcement, either by persuading them or intimidating them. 
Witness tampering is a felony punishable by 20 years in prison. 
You found evidence that the President engaged in efforts, and I 
quote, to encourage witnesses not to cooperate with the 
investigation. Is that right?
    Mr. Mueller. That's correct. Have you got a citation?
    Mr. Raskin. I'm at page 7 on Volume II.
    Mr. Mueller. Thank you.
    Mr. Raskin. Now, one of these witnesses was Michael Cohen, 
the President's personal lawyer, who ultimately pled guilty to 
campaign violations based on secret hush money payments to 
women the President knew and also to lying to Congress about 
the hope for a $1 billion Trump Tower deal.
    After the FBI searched Cohen's home, the President called 
him up personally, he said, to check in, and told him to, 
quote, hang in there and stay strong. Is that right? Do you 
remember finding that?
    Mr. Mueller. If it's in the report as stated, yes, it is 
right.
    Mr. Raskin. Yes. Also in the report, actually, are a series 
of calls made by other friends of the President. One reached 
out to say he was with the boss at Mar-a-Lago, and the 
President said he loves you. His name is redacted. Another 
redacted friend called to say, the boss loves you. And the 
third redacted friend called to say, everyone knows the boss 
has your back.
    Do you remember finding that sequence of calls?
    Mr. Mueller. Generally, yes.
    Mr. Raskin. When the news--and, in fact, Cohen said that 
following the receipt of these messages--I'm quoting here, page 
147, Volume II--he believed he had the support of the White 
House if he continued to toe the party line, and he determined 
to stay on message and be part of the team. That's at page 147. 
Do you remember generally finding that?
    Mr. Mueller. Generally, yes.
    Mr. Raskin. Well, and Robert Costello, a lawyer close to 
the President's legal team, emailed Cohen to say, quote, you 
are loved, they're in our corner, sleep well tonight, and you 
have friends in high places. And that's up on the screen, page 
147. Do you remember reporting that?
    Mr. Mueller. I see that.
    Mr. Raskin. Okay. Now, when the news first broke that Cohen 
had arranged payoffs to Stormy Daniels, Cohen faithfully stuck 
to this party line. He said publicly that neither the Trump 
Organization nor the Trump campaign was a part of the 
transaction and neither reimbursed him. Trump's personal 
attorney at that point quickly texted Cohen to say, quote, 
client says thank you for what you do.
    Mr. Mueller, who is the capital C client thanking Cohen for 
what he does?
    Mr. Mueller. I can't speak to that.
    Mr. Raskin. Okay. The assumption in the context suggests 
very strongly it's President Trump.
    Mr. Mueller. I can't speak to that.
    Mr. Raskin. Okay. Cohen later broke and pled guilty to 
campaign finance offenses, and admitted fully they were made, 
quote, at the direction of candidate Trump. Do you remember 
that?
    Mr. Mueller. Yes.
    Mr. Raskin. After Cohen's guilty plea, the President 
suddenly changed his tune towards Mr. Cohen, didn't he?
    Mr. Mueller. I would say I rely on what's in the report.
    Mr. Raskin. Well, he made the suggestion that Cohen family 
members had committed crimes. He targeted, for example, Cohen's 
father-in-law and repeatedly suggested that he was guilty of 
committing crimes, right?
    Mr. Mueller. Generally accurate.
    Mr. Raskin. Okay. On page 154, you give a powerful summary 
of these changing dynamics, and you said--I'm happy to have you 
read it, but I'm happy to do it if not.
    Mr. Mueller. I have it in front of me. Thank you.
    Mr. Raskin. Would you like to read it?
    Mr. Mueller. I would.
    Mr. Raskin. Can you read it out loud to everybody?
    Mr. Mueller. I would be happy to have you read it out loud.
    Mr. Raskin. Okay. Very good. We'll read it at the same 
time.
    The evidence concerning this sequence of events could 
support an inference that the President used inducements in the 
form of positive messages in an effort to get Cohen not to 
cooperate and then turned to attacks and intimidation to deter 
the provision of information or to undermine Cohen's 
credibility once Cohen began cooperating.
    Mr. Mueller. I believe that's accurate.
    Mr. Raskin. Okay. And in my view, if anyone else in America 
engaged in these actions, they would have been charged with 
witness tampering. We must enforce the principle in Congress 
that you emphasize so well in the very last sentence of your 
report, which is that in America, no person is so high as to be 
above the law.
    I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman leads back.
    The gentlelady from Arizona.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Just recently, Mr. Mueller, you said--Mr. Lieu was asking 
you questions. And Mr. Lieu's question, I quote, the reason you 
didn't indict the President is because of the OLC opinion. And 
you answered, that is correct. But that is not what you said in 
the report, and it's not what you told Attorney General Barr.
    And, in fact, in a joint statement that you released with 
DOJ on May 29, after your press conference, your office issued 
a joint statement with the Department of Justice that said: The 
Attorney General has previously stated that the special counsel 
repeatedly affirmed that he was not saying that but for the OLC 
opinion he would have found the President obstructed justice. 
The special counsel's report and his statement today made clear 
that the office concluded it would not reach a determination 
one way or the other whether the President committed a crime. 
There is no conflict between these statements.
    So, Mr. Mueller, do you stand by your joint statement with 
DOJ that you issued on May 29 as you sit here today?
    Mr. Mueller. I would have to look at it more closely before 
I said I agree with it.
    Mrs. Lesko. Well, so, you know, my conclusion is that what 
you told Mr. Lieu really contradicts what you said in the 
report, and specifically what you said apparently repeatedly to 
Attorney General Barr that--and then you issued a joint 
statement on May 29 saying that the Attorney General has 
previously stated that the special counsel repeatedly affirmed 
that he was not saying but for the OLC report that we would 
have found the President obstructed justice, so I just say 
there's a conflict.
    I do have some more questions. Mr. Mueller, there's been a 
lot of talk today about firing the special counsel and 
curtailing the investigation. Were you ever fired, Mr. Mueller?
    Mr. Mueller. Was I what?
    Mrs. Lesko. Were you ever fired as special counsel, Mr. 
Mueller?
    Mr. Mueller. Not that I--no.
    Mrs. Lesko. No. Were you allowed to complete your 
investigation unencumbered?
    Mr. Mueller. Yes.
    Mrs. Lesko. And, in fact, you resigned as special counsel 
when you closed up the office in late May 2019. Is that 
correct?
    Mr. Mueller. That's correct.
    Mrs. Lesko. Thank you.
    Mr. Mueller, on April 18, the Attorney General held a press 
conference in conjunction with the public release of your 
report. Did Attorney General Barr say anything inaccurate, 
either in his press conference or his March 24 letter to 
Congress, summarizing the principal conclusions of your report?
    Mr. Mueller. Well, what you are not mentioning is a letter 
we sent on March 27 to Mr. Barr that raised some issues, and 
that letter speaks for itself.
    Mrs. Lesko. But then I don't see how you could--that could 
be since AG Barr's letter detailed the principal conclusions of 
your report, and you have said before that--that there wasn't 
anything inaccurate. In fact, you have this joint statement. 
But let me go on to another question.
    Mr. Mueller, rather than purely relying on the evidence 
provided by witnesses and documents, I think you relied a lot 
on media. I'd like to know how many times you cited The 
Washington Post in your report.
    Mr. Mueller. How many times I what?
    Mrs. Lesko. Cited The Washington Post in your report.
    Mr. Mueller. I do not have knowledge of that figure, but 
I--well, that's it. I don't have knowledge of that figure.
    Mrs. Lesko. I counted about 60 times.
    How many times did you cite The New York Times? I counted--
--
    Mr. Mueller. Again, I have no idea.
    Mrs. Lesko. I counted about 75 times.
    How many times did you cite Fox News?
    Mr. Mueller. As with the other two, I have no idea.
    Mrs. Lesko. About 25 times.
    I've got to say it looks like Volume II is mostly 
regurgitated press stories. Honestly, there's almost nothing in 
Volume II that I didn't already hear or know simply by having a 
$50 cable news subscription. However, your investigation cost 
the American taxpayers $25 million.
    Mr. Mueller, you cited media reports nearly 200 times in 
your report. Then in a footnote, a small footnote, No. 7, page 
15 of Volume II of your report, you wrote, I quote, this 
section summarizes and cites various news stories, not for the 
truth of the information contained in the stories, but rather, 
to place candidate Trump's response to those stories in 
context.
    Since nobody but lawyers reads footnotes, are you concerned 
that the American public took the embedded news stories----
    Chairman Nadler. The time of the gentlelady has expired.
    The gentlelady from Washington.
    Mrs. Lesko. Can Mr. Mueller answer the question?
    Chairman Nadler. No. No. No. We're running short on time.
    I said the gentlelady from Washington.
    Ms. Jayapal. Thank you.
    Director Mueller, let's turn to the fifth of the 
obstruction episodes in your report, and that is the evidence 
of whether President Trump engaged in witness tampering with 
Trump campaign chairman Paul Manafort, whose foreign ties were 
critical to your investigation into Russia's interference in 
our elections. And this starts at Volume II, page 123.
    Your office got indictments against Manafort and Trump 
deputy campaign manager Rick Gates in two different 
jurisdictions, correct?
    Mr. Mueller. Correct.
    Ms. Jayapal. And your office found that after a grand jury 
indicted them, Manafort told Gates not to plead guilty to any 
charges because, quote, he had talked to the President's 
personal counsel, and they were going to take care of us. Is 
that correct?
    Mr. Mueller. That's accurate.
    Ms. Jayapal. And according to your report, 1 day after 
Manafort's conviction on eight felony charges, quote, the 
President said that flipping was not fair and almost ought to 
be outlawed. Is that correct?
    Mr. Mueller. I'm aware of that.
    Ms. Jayapal. In this context, Director Mueller, what does 
it mean to flip?
    Mr. Mueller. Have somebody cooperate in a criminal 
investigation.
    Ms. Jayapal. And how essential is that cooperation to any 
efforts to combat crime?
    Mr. Mueller. I'm not going to go beyond that, 
characterizing that effort.
    Ms. Jayapal. Thank you.
    In your report, you concluded that President Trump and his 
personal counsel, Rudy Giuliani, quote, made repeated 
statements suggesting that a pardon was a possibility for 
Manafort, while also making it clear that the President did not 
want Manafort to flip and cooperate with the government, end 
quote. Is that correct?
    Mr. Mueller. Correct.
    Ms. Jayapal. And as you stated earlier, witness tampering 
can be shown where someone with an improper motive encourages 
another person not to cooperate with law enforcement. Is that 
correct?
    Mr. Mueller. Correct.
    Ms. Jayapal. Now, on page 123 of Volume II, you also 
discuss the President's motive, and you say that as court 
proceedings moved forward against Manafort, President Trump, 
quote, discussed with aides whether and in what way Manafort 
might be cooperating and whether Manafort knew any information 
that would be harmful to the President, end quote. Is that 
correct?
    Mr. Mueller. And that was a quote from?
    Ms. Jayapal. From page 123, Volume II.
    Mr. Mueller. I have that. Thank you. Yes.
    Ms. Jayapal. And when someone tries to stop another person 
from working with law enforcement and they do it because 
they're worried about what that person will say, it seems clear 
from what you wrote that this is a classic definition of 
witness tampering.
    Now, Mr. Manafort did eventually decide to cooperate with 
your office, and he entered into a plea agreement, but then he 
broke that agreement. Can you describe what he did that caused 
you to tell the court that the agreement was off?
    Mr. Mueller. I refer you to the court proceedings on that 
issue.
    Ms. Jayapal. So on page 127 of Volume II, you told the 
court that Mr. Manafort lied about a number of matters that 
were material to the investigation, and you said that 
Manafort's lawyers also, quote, regularly briefed the 
President's lawyers on topics discussed and the information 
that Manafort had provided in interviews with the Special 
Counsel's Office. Does that sound right?
    Mr. Mueller. And the source of that is?
    Ms. Jayapal. That's page 127, Volume II. That's a direct 
quote.
    Mr. Mueller. If it's from the report, yes, I support it.
    Ms. Jayapal. Thank you.
    And 2 days after you told the court that Manafort broke his 
plea agreement by lying repeatedly, did President Trump tell 
the press that Mr. Manafort was, quote, very brave because he 
did not flip? This is page 128 of Volume II.
    Mr. Mueller. If it's in the report, I support it as it is--
as it is set forth.
    Ms. Jayapal. Thank you.
    Director Mueller, in your report, you make a very serious 
conclusion about the evidence regarding the President's 
involvement with the Manafort criminal proceedings. Let me read 
to you from your report.
    Evidence concerning the President's conduct toward Manafort 
indicates that the President intended to encourage Manafort to 
not cooperate with the government. It is clear that the 
President, both publicly and privately, discouraged Mr. 
Manafort's cooperation or flipping, while also dangling the 
promise of a pardon if he stayed loyal and did not share what 
he knew about the President. Anyone else who did these things 
would be prosecuted for them. We must ensure that no one is 
above the law.
    And I thank you for being here, Director Mueller.
    I yield back.
    Chairman Nadler. The gentleman from Pennsylvania.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    Mr. Mueller, I'm over here. I'm sorry.
    Mr. Mueller, are you familiar with the now expired 
Independent Counsel Statute? It's the statute under which Ken 
Starr was appointed.
    Mr. Mueller. That Ken Starr did what? I'm sorry.
    Mr. Reschenthaler. Are you familiar with the Independent 
Counsel Statute?
    Mr. Mueller. Are you talking about the one we're operating 
now or a previous?
    Mr. Reschenthaler. No, under which Ken Starr was appointed.
    Mr. Mueller. I am not that familiar with that, but I'd be 
happy to take your question.
    Mr. Reschenthaler. Well, the Clinton administration allowed 
the Independent Counsel Statute to expire after Ken Starr's 
investigation. The final report requirement was a major reason 
why the statute was allowed to expire. Even President Clinton's 
AG, Janet Reno, expressed concerns about the final report 
requirement. And I will quote AG Reno.
    She said: On one hand, the American people have an interest 
in knowing the outcome of an investigation of their highest 
officials. On the other hand, the report requirement cuts 
against many of the most basic traditions and practices of 
American law enforcement. Under our system, we presume 
innocence, and we value privacy. We believe that information 
obtained during criminal investigations should, in most cases, 
be made public only if there's an indictment and prosecution, 
not in a lengthy and detailed report filed after a decision has 
been made not to prosecute. The final report provides a forum 
for unfairly airing any target's dirty laundry. It also creates 
yet another incentive for an independent counsel to 
overinvestigate in order to justify his or her tenure and to 
avoid criticism that the independent counsel may have left a 
stone unturned.
    Again, Mr. Mueller, those are AG Reno's words. Didn't you 
do exactly what AG Reno feared? Didn't you publish a lengthy 
report unfairly airing the target's dirty laundry without 
recommending charges?
    Mr. Mueller. I disagree with that, and I--may I finish?
    Mr. Reschenthaler. Did any of your witnesses have a chance 
to be cross-examined?
    Mr. Mueller. Can I just finish my answer on this?
    Mr. Reschenthaler. Quickly.
    Mr. Mueller. I operate under the current statute, not the 
original statute, so I am most familiar with the current 
statute, not the older statute.
    Mr. Reschenthaler. Did any of the witnesses have a chance 
to be cross-examined?
    Mr. Mueller. Did any of the witnesses in our investigation?
    Mr. Reschenthaler. Yes.
    Mr. Mueller. I'm not going to answer that.
    Mr. Reschenthaler. Did you allow the people mentioned in 
your report to challenge how they were characterized?
    Mr. Mueller. I'm not going to get into that.
    Mr. Reschenthaler. Okay. Given that AG Barr stated multiple 
times during his confirmation hearing that he would make as 
much of your report public as possible, did you write your 
report knowing that it would likely be shared with the public?
    Mr. Mueller. No.
    Mr. Reschenthaler. Did knowing that the report could and 
likely would be made public, did that alter the contents which 
you included?
    Mr. Mueller. I can't speak to that.
    Mr. Reschenthaler. Despite the expectations that your 
report would be released to the public, you left out 
significant exculpatory evidence, in other words, evidence 
favorable to the President, correct?
    Mr. Mueller. Well, I actually would disagree with you. I 
think we strove to put into the report the exculpatory evidence 
as well.
    Mr. Reschenthaler. One of my colleagues got into that with 
you where you said there was evidence you left out.
    Mr. Mueller. Well, you make a choice as to what goes into 
an indictment.
    Mr. Reschenthaler. Isn't it true, Mr. Mueller, isn't it 
true that on page 1 of Volume II, you state when you're quoting 
the statute you have an obligation to either prosecute or not 
prosecute?
    Mr. Mueller. Well, generally that is the case, although 
most cases are not done in the context of the President.
    Mr. Reschenthaler. And in this case, you made a decision 
not to prosecute, correct?
    Mr. Mueller. No. We made a decision not to decide whether 
to prosecute or not.
    Mr. Reschenthaler. So, essentially, what your report did 
was everything that AG Reno warned against?
    Mr. Mueller. I can't agree with that characterization.
    Mr. Reschenthaler. Well, what you did is you compiled 
nearly 450 pages of the very worst information you gathered 
against the target of your investigation, who happens to be the 
President of the United States, and you did this knowing that 
you were not going to recommend charges and that the report 
would be made public.
    Mr. Mueller. Not true.
    Mr. Reschenthaler. Mr. Mueller, as a former officer in the 
United States JAG Corps, I prosecuted nearly 100 terrorists in 
a Baghdad courtroom. I cross-examined the butcher of Fallujah 
in defense of our Navy SEALS. As a civilian, I was elected a 
magisterial district judge in Pennsylvania, so I am very well 
versed in the American legal system.
    The drafting and the publication of some of the information 
in this report without an indictment, without prosecution, 
frankly, flies in the face of American justice. And I find 
those facts and this entire process un-American.
    I yield the remainder of my time to my colleague, Jim 
Jordan.
    Mr. Jordan. Director Mueller, the third FISA renewal 
happens a month after you're named special counsel. What role 
did your office play in the third FISA renewal of Carter Page?
    Mr. Mueller. I'm not going to talk to that.
    Chairman Nadler. The time of the gentleman has expired.
    The gentlelady from Florida.
    Mrs. Demings. Director Mueller, a couple of my colleagues--
right here--wanted to talk to you or ask you about lies, so 
let's talk about lies. According to your report, page 9, Volume 
I, witnesses lied to your office and to Congress. Those lies 
materially impaired the investigation of Russia interference, 
according to your report.
    Other than the individuals who pled guilty to crimes based 
on their lying to you and your team, did other witnesses lie to 
you?
    Mr. Mueller. I think there are probably a spectrum of 
witnesses in terms of those who are not telling the full truth 
and those who are outright liars.
    Mrs. Demings. Thank you very much.
    Outright liars. It is fair to say, then, that there were 
limits on what evidence was available to your investigation of 
both Russia election interference and obstruction of justice?
    Mr. Mueller. That's true and is usually the case.
    Mrs. Demings. And that lies about Trump campaign officials 
and administration officials impeded your investigation?
    Mr. Mueller. I would generally agree with that.
    Mrs. Demings. Thank you so much, Director Mueller. You will 
be hearing more from me in the next hearing.
    So I yield the balance of my time to Mr. Correa. Thank you.
    Mr. Correa. Mr. Mueller, first of all, let me welcome you. 
Thank you for your service to our country. You're a hero, 
Vietnam war vet, a wounded war vet. We won't forget your 
service to our country.
    Mr. Mueller. Thank you, sir.
    Mr. Correa. If I may begin. Because of time limits, we have 
gone in depth on only five possible episodes of obstruction. 
There's so much more, and I want to focus on another section of 
obstruction, which is the President's conduct concerning 
Michael Flynn, the President's National Security Advisor.
    In early 2017, the White House Counsel and the President 
were informed that Mr. Flynn had lied to government authorities 
about his communications with the Russian Ambassador during the 
Trump campaign and transition. Is this correct?
    Mr. Mueller. Correct.
    Mr. Correa. If a hostile nation knows that a U.S. official 
has lied publicly, that can be used to blackmail that 
government official, correct?
    Mr. Mueller. I'm not going to speak to that. I don't 
disagree with it necessarily, but I'm not going to speak any 
more to that issue.
    Mr. Correa. Thank you very much, sir.
    Flynn resigned on February 13, 2016, and the very next day, 
when the President was having lunch with New Jersey Governor 
Chris Christie, did the President say, open quotes, now that we 
fired Flynn, the Russia thing is over, close quote? Is that 
correct?
    Mr. Mueller. Correct.
    Mr. Correa. And is it true that Christie responded by 
saying, open quotes, no way, and this Russia thing is far from 
over, close quote?
    Mr. Mueller. That's the way we have it in the report.
    Mr. Correa. Thank you.
    And after the President met with Christie, later that same 
day, the President arranged to meet with then FBI Director 
James Comey alone in the Oval Office, correct?
    Mr. Mueller. Correct, particularly if you have the citation 
to the report.
    Mr. Correa. Page 39-40, Volume II.
    Mr. Mueller. Thank you very much.
    Mr. Correa. And according to Comey, the President told him, 
open quote, I hope you can see your way clear to letting this 
thing go, to letting Flynn go. He's a good guy, and I hope you 
can let it go, close quote. Page 40, Volume II.
    Mr. Mueller. Accurate.
    Mr. Correa. What did Comey understand the President to be 
asking?
    Mr. Mueller. I'm not going to get into what was in Mr. 
Comey's mind.
    Mr. Correa. Comey understood this to be a direction because 
of the President's position and the circumstances of the one-
to-one meeting? Page 40, Volume II.
    Mr. Mueller. Well, I understand it's in the report, and I 
support it as being in the report.
    Mr. Correa. Thank you, sir.
    Even though the President publicly denied telling Comey to 
drop the investigation, you found, open quote, substantial 
evidence corroborating Comey's account over the President's. Is 
this correct?
    Mr. Mueller. That's correct.
    Mr. Correa. The President fired Comey on May 9. Is that 
correct, sir?
    Mr. Mueller. I believe that's the accurate date.
    Mr. Correa. That's page 77, Volume II.
    You found substantial evidence that the catalyst for the 
President's firing of Comey was Comey's, open quote, 
unwillingness to publicly state that the President was not 
personally under investigation.
    Mr. Mueller. I'm not going to delve more into the details 
of what happened. If it's in the report, again, I'll support it 
because it's already been reviewed and appropriately appears in 
the report.
    Mr. Correa. And that's page 75, Volume II.
    Mr. Mueller. Thank you.
    Mr. Correa. Thank you.
    And, in fact, the very next day, the President told the 
Russian foreign minister, open quote, I just fired the head of 
the FBI. He was crazy, a real nut job. I faced great pressure 
because of Russia. That's taken off. I'm not under 
investigation, close quote. Is that correct?
    Mr. Mueller. If that's what was written in the report, yes.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Correa. Thank you, sir.
    Chairman Nadler. The gentleman from Virginia.
    Mr. Cline. Thank you, Mr. Chairman.
    Mr. Mueller, we've heard a lot about what you're not going 
to talk about today. So let's talk about something that you 
should be able to talk about, the law itself, the underlying 
obstruction statute and your creative legal analysis of the 
statutes in Volume II, particularly an interpretation of 18 
U.S.C. 1512 C. Section 1512 C is an obstruction of justice 
statute created as part of auditing financial regulations for 
public companies. And as you write on page 164 of Volume II, 
this provision was added as a floor amendment in the Senate and 
explained as closing a certain loophole with respect to 
document shredding.
    And to read the statute, whoever corruptly alters, 
destroys, mutilates, or conceals a record, document, or other 
object or attempts to do so with the intent to impair the 
object's integrity or availability for use in an official 
proceeding or otherwise obstructs, influences, or impedes any 
official proceeding or attempts to do so shall be fined under 
the statute and imprisoned not more than 20 years or both.
    Your analysis and application of the statute proposes to 
give clause C2 a much broader interpretation than commonly 
used. First, your analysis proposes to read clause C2 in 
isolation, reading it as a freestanding, all-encompassing 
provision prohibiting any act influencing a proceeding if done 
with an improper motive. And second, your analysis of the 
statute proposes to apply the sweeping prohibition to lawful 
acts taken by public officials exercising their discretionary 
powers if those acts influence a proceeding.
    So, Mr. Mueller, I'd ask you, in analyzing the obstruction, 
you state that you recognize that the Department of Justice and 
the courts have not definitively resolved these issues, 
correct?
    Mr. Mueller. Correct.
    Mr. Cline. You would agree that not everyone in the Justice 
Department agreed with your legal theory of the obstruction of 
justice statute, correct?
    Mr. Mueller. I'm not going to be involved in a discussion 
on that at this juncture.
    Mr. Cline. In fact, the Attorney General himself disagrees 
with your interpretation of the law, correct?
    Mr. Mueller. I leave that to the Attorney General to 
identify.
    Mr. Cline. And you would agree that prosecutors sometimes 
incorrect apply the law, correct?
    Mr. Mueller. I would have to agree with that one, yes.
    Mr. Cline. And members of your legal team, in fact, have 
had convictions overturned because they were based on an 
incorrect legal theory, correct?
    Mr. Mueller. I don't know to what you aver. We've all spent 
time in the trenches trying cases and not won every one of 
those cases.
    Mr. Cline. Well, let me ask you about one in particular. 
One of your top prosecutors, Andrew Weissmann, obtained a 
conviction against auditing firm Arthur Andersen, lower court, 
which was subsequently overturned in a unanimous Supreme Court 
decision that rejected the legal theory advanced by Weissmann, 
correct?
    Mr. Mueller. Well, I'm not going to get into that, delve 
into that.
    Mr. Cline. Well, let me read from that and maybe it will--
--
    Mr. Mueller. May I just finish? May I just finish----
    Mr. Cline. Yes.
    Mr. Mueller [continuing]. My answer to say that I'm not 
going to be--get involved in a discussion on that. I will refer 
you to that citation that you gave me at the outset for the 
lengthy discussion on just what you're talking about. And to 
the extent that I have anything to say about it, it is what 
we've already put into the report on that issue.
    Mr. Cline. I am reading from your report when discussing 
this section. I will read from the decision of the Supreme 
Court unanimously reversing Mr. Weissmann when he said, indeed, 
it's striking how little culpability the instructions required. 
For example, the jury was told that even if petitioner honestly 
and sincerely believed its conduct was lawful, the jury could 
convict. The instructions also diluted the meaning of corruptly 
such that it covered innocent conduct.
    Mr. Mueller. Well, let me just say----
    Mr. Cline. Let me move on. I have limited time.
    Your report takes the broadest possible reading of this 
provision in applying it to the President's official acts, and 
I'm concerned about the implications of your theory for 
overcriminalizing conduct by public officials and private 
citizens alike.
    So to emphasize how broad your theory of liability is, I 
want to ask you about a few examples. On October 11, 2015, 
during an FBI investigation into Hillary Clinton's use of a 
private email server, President Obama said, I don't think it 
posed a national security problem. And he later said, I can 
tell you that this is not a situation in which America's 
national security was endangered.
    Assuming for a moment that his comments did influence the 
investigation, couldn't President Obama be charged, under your 
interpretation, with obstruction of justice?
    Mr. Mueller. Well, again, I'd refer you to the report. But 
let me say with Andrew Weissmann, who is one of the more 
talented attorneys that we have on board----
    Mr. Cline. Okay. Well, I'll take that as----
    Mr. Mueller [continuing]. Over a period of time, he has run 
a number of units.
    Mr. Cline. I have very little time.
    In August 2015, a very senior DOJ official called FBI 
Deputy Director Andrew McCabe expressing concern that FBI 
agents were still openly pursuing the Clinton Foundation probe. 
The DOJ official was apparently very pissed off, quote/unquote. 
McCabe questioned this official, asking, are you telling me I 
need to shut down a validly predicated investigation, to which 
the official replied, of course not.
    This seems to be a clear example of somebody within the 
executive branch attempting to influence an FBI investigation. 
So under your theory, couldn't that person be charged with 
obstruction as long as the prosecutor could come up with a 
potentially corrupt motive?
    Mr. Mueller. I refer you to our lengthy dissertation on 
exactly those issues that appears at the end of the report.
    Mr. Cline. Mr. Mueller, I'd argue that it says above the 
Supreme Court equal justice----
    Chairman Nadler. The time of the gentleman has expired.
    Our intent was to conclude this hearing in 3 hours. Given 
the break, that would bring us to approximately 11:40. With 
Director Mueller's indulgence, we will be asking our remaining 
Democratic members to voluntarily limit their time below the 5 
minutes so that we can complete our work as close to that 
timeframe as possible.
    And I recognize the gentlelady from Pennsylvania.
    Ms. Scanlon. Thank you.
    Director Mueller, I want to ask you some questions about 
the President's statements regarding advance knowledge of the 
WikiLeaks dumps. So the President refused to sit down with your 
investigators for an in-person interview, correct?
    Mr. Mueller. Correct.
    Ms. Scanlon. So the only answers we have to questions from 
the President are contained in Appendix C to your report?
    Mr. Mueller. That's correct.
    Ms. Scanlon. Okay. So looking at Appendix C on page 5, you 
asked the President over a dozen questions about whether he had 
knowledge that WikiLeaks possessed or might possess the emails 
that were stolen by the Russians.
    Mr. Mueller. I apologize.
    Ms. Scanlon. Sure.
    Mr. Mueller. Can you start it again?
    Ms. Scanlon. Okay. Sure.
    Mr. Mueller. Thank you.
    Ms. Scanlon. So we are looking at Appendix C.
    Mr. Mueller. Right.
    Ms. Scanlon. And at Appendix C, page 5, you ask the 
President about a dozen questions about whether he had 
knowledge that WikiLeaks possessed the stolen emails that might 
be released in a way helpful to his campaign or harmful to the 
Clinton campaign. Is that correct? You asked those questions?
    Mr. Mueller. Yes.
    Ms. Scanlon. Okay. In February of this year, Mr. Trump's 
personal attorney, Michael Cohen, testified to Congress under 
oath that, quote: Mr. Trump knew from Roger Stone in advance 
about the WikiLeaks drop of emails, end quote.
    That is a matter of public record, isn't it?
    Mr. Mueller. Well, are you referring to the report or some 
other public record?
    Ms. Scanlon. This was testimony before Congress by Mr. 
Cohen. Do you know if he told you----
    Mr. Mueller. I am not familiar with--explicitly familiar 
with what he testified to before Congress.
    Ms. Scanlon. Okay. Let's look at an event described on page 
18 of Volume II of your report. Now, according--and we are 
going to put it up in a slide, I think. According to Deputy 
Campaign Manager Rick Gates, in the summer of 2016, he and 
candidate Trump were on the way to an airport shortly after 
WikiLeaks released its first set of stolen emails. And Gates 
told your investigators that candidate Trump was on a phone 
call, and when the call ended, Trump told Gates that more 
releases of damaging information would be coming, end quote. Do 
you recall that from the report?
    Mr. Mueller. If it is in the report, I support it.
    Ms. Scanlon. Okay. And that is on page 18 of Volume II. 
Now, on page 77 of Volume II, your report also stated, quote: 
In addition, some witnesses said that Trump privately sought 
information about future WikiLeaks releases, end quote. Is that 
correct?
    Mr. Mueller. Correct.
    Ms. Scanlon. Now, in Appendix C where the President did 
answer some written questions, he said, quote: I do not recall 
discussing WikiLeaks with him, nor do I recall being aware of 
Mr. Stone having discussed WikiLeaks with individuals 
associated with my campaign, end quote. Is that correct?
    Mr. Mueller. If it is from the report, it is correct.
    Ms. Scanlon. Okay. So is it fair to say the President 
denied ever discussing WikiLeaks with Mr. Stone and denied 
being aware that anyone associated with his campaign discussed 
WikiLeaks with Stone?
    Mr. Mueller. I am sorry. Could you repeat that one?
    Ms. Scanlon. Is it fair, then, that the President denied 
knowledge of himself or anyone else discussing WikiLeaks dumps 
with Mr. Stone?
    Mr. Mueller. Yes. Yes.
    Ms. Scanlon. Okay. And, with that, I would yield back.
    Mr. Mueller. Thank you, ma'am.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from Florida.
    Mr. Steube. Thank you, Mr. Chair.
    Mr. Mueller, did you indeed interview for the FBI Director 
job one day before you were appointed as special counsel?
    Mr. Mueller. In my understanding, I was not applying for 
the job. I was asked to give my input on what it would take to 
do the job, which triggered the interview you are talking 
about.
    Mr. Steube. So you don't recall on May 16, 2017, that you 
interviewed with the President regarding the FBI Director job?
    Mr. Mueller. I interviewed with the President, but it 
wasn't about the Director job.
    Mr. Steube. The FBI Director job?
    Mr. Mueller. It was about the job but not about me applying 
for the job.
    Mr. Steube. So your statement here today is that you didn't 
interview to apply for the FBI Director job?
    Mr. Mueller. That is correct.
    Mr. Steube. So did you tell the Vice President that the FBI 
Director position would be the one job that you would come back 
for?
    Mr. Mueller. I don't recall that one.
    Mr. Steube. You don't recall that?
    Mr. Mueller. No.
    Mr. Steube. Okay. Given your 22 months of investigation, 
tens of millions of dollars spent, and millions of documents 
reviewed, did you obtain any evidence at all that any American 
voter changed their vote as a result of Russian's election 
interference?
    Mr. Mueller. I can't speak to that.
    Mr. Steube. You can't speak to that?
    Mr. Mueller. No.
    Mr. Steube. After 22 months of investigation, there is not 
any evidence in that document before us that any voter changed 
their vote because of their interference, and I am asking you 
based on all of the documents that you reviewed.
    Mr. Mueller. That was outside our purview.
    Mr. Steube. Russian meddling was outside your purview?
    Mr. Mueller. The impact of that meddling was undertaken by 
other agencies.
    Mr. Steube. Okay. You stated in your opening statement that 
you would not get into the details of the Steele dossier. 
However, multiple times in Volume II on page 23, 27, and 28, 
you mentioned the unverified allegations. How long did it take 
you to reach the conclusion that it was unverified?
    Mr. Mueller. I am not going to speak to that.
    Mr. Steube. It is actually in your report multiple times as 
unverified, and you are telling me that you are not willing to 
tell us how you came to the conclusion that it was unverified?
    Mr. Mueller. True.
    Mr. Steube. When did you become aware that the unverified 
Steele dossier was included in the FISA application to spy on 
Carter Page?
    Mr. Mueller. I am sorry. What was the question?
    Mr. Steube. When did you become aware that the unverified 
Steele dossier was intended--was included in the FISA 
application to spy on Carter Page?
    Mr. Mueller. I am not going to speak to that.
    Mr. Steube. Your team interviewed Christopher Steele. Is 
that correct?
    Mr. Mueller. I am not going to get into that. As I said at 
the outset----
    Mr. Steube. You can't tell this committee as to whether or 
not you interviewed Christopher Steele in a 22-month 
investigation with 18 lawyers?
    Mr. Mueller. As I said at the outset, that is one of 
those--one of the investigations that is being handled by 
others in the Department of Justice.
    Mr. Steube. Yeah, but you're here testifying about this 
investigation today, and I am asking you directly, did any 
members of your team or did you interview Christopher Steele in 
the course of your investigation?
    Mr. Mueller. And I am not going to answer that question, 
sir.
    Mr. Steube. You had 2 years to investigate. Not once did 
you consider or even investigate how an unverified document 
that was paid for by a political opponent was used to obtain a 
warrant to spy on the opposition political campaign. Did you do 
any investigation on that whatsoever?
    Mr. Mueller. I do not accept your characterization of what 
occurred.
    Mr. Steube. What would be your characterization?
    Mr. Mueller. I am not going to speak any more to it.
    Mr. Steube. So you can't speak any more to it, but you are 
not going to agree with my characterization. Is that correct?
    Mr. Mueller. Yes.
    Mr. Steube. The FISA application makes reference to Source 
1, who is Christopher Steele, the author of the Steele dossier. 
The FISA application says nothing Source 1's reason for 
conducting the research into Candidate 1's ties to Russia based 
on Source 1's previous reporting history with FBI whereby 
Source 1 provided reliable information to the FBI. The FBI 
believes Source 1's reporting herein to be credible. Do you 
believe the FBI's representation that Source 1's reporting was 
credible to be accurate?
    Mr. Mueller. I am not going to answer that.
    Mr. Steube. So you are not going to respond to any of the 
questions regarding Christopher Steele or your interviews with 
him?
    Mr. Mueller. Well, as I said at the outset this morning, 
that was one of the investigations that I could not speak to.
    Mr. Steube. Well, I don't understand how if you interviewed 
an individual in the purview of this investigation that you are 
testifying to us today that you've closed that investigation, 
how that is not within the purview to tell us about that 
investigation and who you interviewed.
    Mr. Mueller. I have nothing to add.
    Mr. Steube. Okay. Well, I can guarantee that the American 
people want to know, and I am very hopeful and glad that AG 
Barr is looking into this and the inspector general is looking 
into this because you are unwilling to answer the questions of 
the American people as it relates to the very basis of this 
investigation into the President and the very basis of this 
individual who you did interview. You are just refusing to 
answer those questions. Can't the President fire the FBI 
Director at any time without reason under Article I of the 
Constitution?
    Mr. Mueller. Yes.
    Mr. Steube. Article II.
    Mr. Mueller. Yes.
    Mr. Steube. That is correct. Can he also fire you as 
special counsel at any time without any reason?
    Mr. Mueller. I believe that to be the case.
    Mr. Steube. Under Article II.
    Mr. Mueller. Well, hold on just a second. You said without 
any reason. I know that special counsel can be fired, but I am 
not sure it extends to whatever reason is given.
    Mr. Steube. Well, and you've testified that you weren't 
fired. You were able to complete your investigation in full. Is 
that correct?
    Mr. Mueller. I am not going to add to what I have stated 
before.
    Mr. Steube. My time has expired.
    Chairman Nadler. The gentleman's time has expired.
    The gentlelady from Pennsylvania--from Texas.
    Ms. Garcia. Thank you, Mr. Chairman, and thank you, Mr. 
Mueller, for being with us. It is close to the afternoon now.
    Director Mueller, now I would like to ask you about the 
President's answers relating to Roger Stone. Roger Stone was 
indicted for multiple Federal crimes, and the indictment 
alleges that Mr. Stone discussed future WikiLeaks email 
releases with the Trump campaign. Understanding there is a gag 
order on the Stone case, I will keep my questions restricted to 
publicly available information. Mr. Stone's----
    Mr. Mueller. Let me just say at the outset. I don't mean to 
disrupt you, but I am not--I would like some demarcation of 
that which is applicable to this but also in such a way that it 
does not hinder the other prosecution that is taking place in 
D.C.
    Ms. Garcia. I understand that. I am only going to be 
talking about the questions that you asked in writing to the 
President----
    Mr. Mueller. Thank you, ma'am.
    Ms. Garcia [continuing]. That relate to Mr. Stone. Mr. 
Stone's indictment states, among other things, the following 
quote: Stone was contacted by senior Trump officials to inquire 
about future releases of Organization 1, Organization 1 being 
WikiLeaks. The indictment continues, quote: Stone thereafter 
told the Trump campaign about potential future release of 
damaging material by WikiLeaks. So, in short, the indictment 
alleges that Stone was asked by the Trump campaign to get 
information about more WikiLeaks releases and that Stone, in 
fact, did tell the Trump campaign about potential future 
releases, correct?
    Mr. Mueller. Yes, ma'am, but I see you are quoting from the 
indictment. Even though the indictment is a public document, I 
feel uncomfortable discussing anything having to do with the 
Stone prosecution.
    Ms. Garcia. Right. The indictment is of record, and we 
pulled it off the----
    Mr. Mueller. I understand.
    Ms. Garcia. I am reading straight from it. Well, turning 
back to the President's answers to your questions, then, on 
this very subject, the President denied ever discussing future 
WikiLeaks releases with Stone and denied knowing whether anyone 
else on his campaign had those discussions with Stone. If you 
had learned that other witnesses--putting aside the President, 
if other witnesses had lied to your investigators in response 
to specific questions, whether in writing or in an interview, 
could they be charged with false statement crimes?
    Mr. Mueller. Well, I am not going to speculate. I think you 
are asking for me to speculate given a set of circumstances.
    Ms. Garcia. Well, let's make it more specific. What if I 
had made a false statement to an investigator on your team? 
Could I go to jail for up to 5 years?
    Mr. Mueller. Yes.
    Ms. Garcia. Yes.
    Mr. Mueller. Well, although--it is Congress, so----
    Ms. Garcia. Well, that is the point, though, isn't it, that 
no one is above the law?
    Mr. Mueller. That is right.
    Ms. Garcia. Not you, not the Congress, and certainly not 
the President. And I think it is just troubling to have to hear 
some of these things, and that is why the American people 
deserve to learn the full facts of the misconduct described in 
your report for which any other person would have been charged 
with crimes.
    So thank you for being here, and again, the point has been 
underscored many times, but I will repeat it. No one is above 
the law. Thank you.
    Mr. Mueller. Thank you, ma'am.
    Chairman Nadler. The gentleman from North Dakota is 
recognized.
    Mr. Armstrong. Mr. Mueller, how many people did you fire? 
How many people on your staff did you fire during the course of 
the investigation?
    Mr. Mueller. How many people?
    Mr. Armstrong. Did you fire?
    Mr. Mueller. I am not going to discuss that.
    Mr. Armstrong. According to the inspector general's report, 
Attorney No. 2 was let go, and we know Peter Strzok was let go, 
correct?
    Mr. Mueller. Yes, and there may have been other persons on 
other issues that have been either transferred or fired.
    Mr. Armstrong. Peter Strzok testified before this committee 
on July 12, 2018, that he was fired because you were concerned 
about preserving the appearance of independence. Do you agree 
with his testimony?
    Mr. Mueller. Say that again, if you could.
    Mr. Armstrong. He said he was fired at least partially 
because you were worried about, concerned about preserving the 
appearance of independence with the special counsel's 
investigation. Do you agree with that statement?
    Mr. Mueller. The statement was by whom?
    Mr. Armstrong. Peter Strzok at this hearing.
    Mr. Mueller. I am not familiar with that.
    Mr. Armstrong. Did you fire him because you were worried 
about the appearance of independence of the investigation?
    Mr. Mueller. No. He was transferred as a result of 
instances involving texts.
    Mr. Armstrong. Do you agree that your office did not only 
have an obligation to operate with independence but to operate 
with the appearance of independence as well?
    Mr. Mueller. Absolutely. We strove to do that over the 2 
years.
    Mr. Armstrong. Andrew Weissmann----
    Mr. Mueller. Part of that was making certain that----
    Mr. Armstrong. Andrew Weissmann is one of your top 
attorneys.
    Mr. Mueller. Yes.
    Mr. Armstrong. Did Weissmann have a role in selecting other 
members of your team?
    Mr. Mueller. He had some role but not a major role.
    Mr. Armstrong. Andrew Weissmann attended a Hillary 
Clinton's election night party. Did you know that before or 
after he came onto the team?
    Mr. Mueller. I don't know when I found that out.
    Mr. Armstrong. On January 30, 2017 Weissmann wrote an email 
to Deputy Attorney General Yates stating, ``I am so proud and 
in awe,'' regarding her disobeying a direct order from the 
President.
    Did Weissmann disclose that email to you before he joined 
the team?
    Mr. Mueller. I am not going to talk about that.
    Mr. Armstrong. Is that not a conflict of interest?
    Mr. Mueller. I am not going to talk about that.
    Mr. Armstrong. Are you aware that Ms. Jeannie Rhee 
represented Hillary Clinton in litigation regarding personal 
emails originating from Clinton's time as Secretary of State?
    Mr. Mueller. Yes.
    Mr. Armstrong. Did you know that before she came on the 
team?
    Mr. Mueller. No.
    Mr. Armstrong. Aaron Zebley, the guy sitting next to you, 
represented Justin Cooper, a Clinton aide, who destroyed one of 
Clinton's mobile devices. And you must be aware by now that six 
of your lawyers donated $12,000 directly to Hillary Clinton. I 
am not even talking about the $49,000 they donated to other 
Democrats, just the donations to the opponent who was the 
target of your investigation.
    Mr. Mueller. Can I speak for a second to the hiring 
practices?
    Mr. Armstrong. Sure.
    Mr. Mueller. We strove to hire those individuals that could 
do the job.
    Mr. Armstrong. Okay.
    Mr. Mueller. I've been in this business for almost 25 
years. And in those 25 years, I have not had occasion once to 
ask somebody about their political affiliation. It is not done. 
What I care about is the capability of the individual to do the 
job and do the job quickly and seriously and with integrity.
    Mr. Armstrong. But that is what I am saying, Mr. Mueller. 
This isn't just about you being able to vouch for your team. 
This is about knowing that the day you accepted this role, you 
had to be aware, no matter what this report concluded, half of 
the country was going to be skeptical of your team's findings, 
and that is why we have recusal laws that define bias and 
perceived bias for this very reason. 28 United States Code 528 
specifically lists not just political conflict of interest but 
the appearance of political conflict of interest. It is just 
simply not enough that you vouch for your team. The interest of 
justice demands that no perceived bias exist. I can't imagine a 
single prosecutor or judge that I have ever appeared in front 
of would be comfortable with these circumstances where over 
half of the prosecutorial team had a direct relationship to the 
opponent of the person being investigated.
    Mr. Mueller. Let me--one other fact that I put on the 
table, and that is we hired 19 lawyers over a period of time. 
Of those 19 lawyers, 14 of them were transferred from elsewhere 
in the Department of Justice. Only five came from outside. So 
we did not have----
    Mr. Armstrong. And half of them had a direct relationship, 
political or personal, with the opponent of the person you were 
investigating. And that's my point. I wonder if not a single 
word in this entire report was changed, but rather, the only 
difference was we switched Hillary Clinton and President Trump.
    If Peter Strzok had texted those terrible things about 
Hillary Clinton instead of President Trump, if a team of 
lawyers worked for, donated thousands of dollars to, and went 
to Trump's parties instead of Clinton's, I don't think we'd be 
here trying to prop up an obstruction allegation.
    My colleagues would have spent the last 4 months accusing 
your team of being bought and paid for by the Trump campaign 
and we couldn't trust a single word of this report. They would 
still be accusing the President of conspiracy with Russia, and 
they would be accusing your team of aiding and abetting with 
that conspiracy.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Colorado.
    Mr. Neguse. Director Mueller, thank you for your service to 
our country. I'd like to talk to you about one of the other 
incidents of obstruction, and that's the evidence in your 
report showing the President directing his son and his 
communications director to issue a false public statement in 
June of 2017 about a meeting between his campaign and Russian 
individuals at Trump Tower in June of 2016.
    According to your report, Mr. Trump, Jr. was the only Trump 
associate who participated in that meeting and who declined to 
be voluntarily interviewed by your office. Is that correct?
    Mr. Mueller. Yes.
    Mr. Neguse. Did Mr. Trump, Jr. or his counsel ever 
communicate to your office any intent to invoke his Fifth 
Amendment right against self-incrimination?
    Mr. Mueller. I'm not going to answer that.
    Mr. Neguse. You did pose written questions to the President 
about his knowledge of the Trump Tower meeting. You included--
also asked him about whether or not he had directed a false 
press statement. The President did not answer at all that 
question, correct?
    Mr. Mueller. I don't have it in front of me. I take your 
word.
    Mr. Neguse. I can represent to you that appendix C, 
specifically C13, states as much.
    According to page 100 of Volume II of your report, your 
investigation found that Hope Hicks, the President's 
communications director, in June of 2017 was shown emails that 
set up the Trump Tower meeting, and she told your office that 
she was, quote, shocked by the emails because they looked, 
quote, really bad. True?
    Mr. Mueller. Do you have the citation?
    Mr. Neguse. Sure. It's page 100 of Volume II.
    While you're flipping to that page, Director Mueller, I 
will also tell you that according to page 99 of Volume II, 
those emails in question stated, according to your report, that 
the crown prosecutor of Russia had offered to provide the Trump 
campaign with some official documents and information that 
would incriminate Hillary and her dealings with Russia as part 
of Russia and its government support for Mr. Trump.
    Trump Jr. responded, if it's what you say, I love it. And 
he, Kushner, and Manafort, met with the Russian attorneys and 
several other Russian individuals at Trump Tower on June 9, 
2016, end quote. Correct?
    Mr. Mueller. Generally accurate.
    Mr. Neguse. Isn't it true that Ms. Hicks told your office 
that she went multiple times to the President to, quote, urge 
him that they should be fully transparent about the June 9 
meeting, end quote, but the President each time said no. 
Correct?
    Mr. Mueller. Accurate.
    Mr. Neguse. And the reason was because of those emails 
which the President, quote, believed would not leak, correct?
    Mr. Mueller. Well, I'm not certain how it's characterized, 
but generally correct.
    Mr. Neguse. Did the President direct Ms. Hicks to say, 
quote, only that Trump Jr. took a brief meeting and it was 
about Russian adoption, end quote, because Trump Jr.'s 
statement to The New York Times, quote, said too much, 
according to page 102 of Volume II?
    Mr. Mueller. Okay.
    Mr. Neguse. Correct?
    Mr. Mueller. Let me just check one thing.
    Yes.
    Mr. Neguse. And according to Ms. Hicks, the President still 
directed her to say the meeting was only about Russian 
adoption, correct?
    Mr. Mueller. Yes.
    Mr. Neguse. Despite knowing that to be untrue.
    Thank you, Director Mueller.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman from Louisiana.
    Mr. Johnson of Louisiana. Mr. Mueller, you've been asked--
over here on the far right, sir.
    You've been asked a lot of questions here today. To be 
frank, you've performed as most of us expected. You've stuck 
closely to your report, and you have declined to answer many of 
our questions on both sides.
    As the closer for the Republican side--I know you're glad 
to get to the close--I want to summarize the highlights of what 
we have heard and what we know.
    You spent 2 years and nearly $30 million taxpayer and 
unlimited resources to prepare a nearly 450-page report which 
you describe today as very thorough. Millions of Americans 
today maintain genuine concerns about your work, in large part, 
because of the infamous and widely publicized bias of your 
investigating team members, which we now know included 14 
Democrats and zero Republicans.
    Campaign finance reports later showed that team----
    Mr. Mueller. Can I----
    Mr. Johnson of Louisiana. Excuse me. It's my time. That 
team of Democrat investigators you hired donated more than 
$60,000 to the Hillary Clinton campaign and other Democratic 
candidates. Your team also included Peter Strzok and Lisa Page, 
which have been discussed today, and they had the lurid text 
messages that confirmed they openly mocked and hated Donald 
Trump and his supporters and they vowed to take him out.
    Mr. Ratcliffe asked you earlier this morning, quote, can 
you give me an example other than Donald Trump where the 
Justice Department determined that an investigated person was 
not exonerated because their innocence was not conclusively 
determined, unquote. You answered, I cannot. Sir, that is 
unprecedented.
    The President believed from the very beginning that you and 
your special counsel team had serious conflicts. This is stated 
in the report and acknowledged by everybody. And yet President 
Trump cooperated fully with the investigation. He knew he had 
done nothing wrong, and he encouraged all witnesses to 
cooperate with the investigation and produce more than 1.4 
million pages of information and allowed over 40 witnesses, who 
were directly affiliated with the White House or his campaign.
    Your report acknowledges on page 61, Volume II, that a 
volume of evidence exists of the President telling many people 
privately, quote, the President was concerned about the impact 
of the Russian investigation on his ability to govern and to 
address important foreign relations issues and even matters of 
national security.
    And on page 174 of Volume II, your report also acknowledges 
that the Supreme Court has held, quote, the President's removal 
powers are at their zenith with respect to principal officers, 
that is officers who must be appointed by the President and who 
report to him directly. The President's exclusive and 
illimitable power of removal of those principal officers 
furthers the President's ability to ensure that the laws are 
faithfully executed, unquote. And that would even include the 
Attorney General.
    Look, in spite of all of that, nothing ever happened to 
stop or impede your special counsel's investigation. Nobody was 
fired by the President, nothing was curtailed, and the 
investigation continued unencumbered for 22 long months.
    As you finally concluded in Volume I, the evidence, quote, 
did not establish that the President was involved in an 
underlying crime related to Russian election interference, 
unquote. And the evidence, quote, did not establish that the 
President or those close to him were involved in any Russian 
conspiracies or had an unlawful relationship with any Russian 
official, unquote.
    Over those 22 long months that your investigation dragged 
along, the President became increasingly frustrated, as many of 
the American people did, with its affects on our country and 
his ability to govern. He vented about this to his lawyer and 
his close associates, and he even shared his frustrations, as 
we all know, on Twitter.
    But while the President's social media accounts might have 
influenced some in the media or the opinion of some of the 
American people, none of those audiences were targets or 
witnesses in your investigation. The President never affected 
anybody's testimony; he never demanded to end the investigation 
or demanded that you be terminated; and he never misled 
Congress, the DOJ, or the special counsel. Those, sir, are 
undisputed facts.
    There will be a lot of discussion, I predict, today and 
great frustration throughout the country about the fact that 
you wouldn't answer any questions here about the origins of 
this whole charade, which was the infamous Christopher Steele 
dossier, now proven to be totally bogus, even though it is 
listed and specifically referenced in your report. But as our 
hearing is concluding, we apparently will get no comment on 
that from you.
    Mr. Mueller, there's one primary reason why you were called 
here today by the Democrat majority of our committee. Our 
colleagues on the other side of the aisle just want political 
cover. They desperately wanted you today to tell them they 
should impeach the President. But the one thing you have said 
very clearly today is that your report is complete and 
thorough, and you completely agree with and stand by its 
recommendations and all of its content. Is that right?
    Mr. Mueller. True.
    Mr. Johnson of Louisiana. Mr. Mueller, one last important 
question. Your report does not recommend impeachment, does it?
    Mr. Mueller. I'm not going to talk about the 
recommendations.
    Mr. Johnson of Louisiana. It does not conclude that 
impeachment would be appropriate here, right?
    Mr. Mueller. I'm not going to talk--I'm not going to talk 
about that issue.
    Mr. Johnson of Louisiana. That's one of the many things you 
wouldn't talk about today, but I think we can all draw our own 
conclusions.
    I do thank you for your service to the country. And I'm 
glad this charade will come to an end soon and we can get back 
to the important business of this committee with its broad 
jurisdiction of so many important issues for the country.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    I want to announce that our intent was to conclude this 
hearing at around 11:45. All of the Republican members have now 
asked their questions, but we have a few remaining Democratic 
members. They will be limiting their questions, so with 
Director Mueller's indulgence, we expect to finish within 15 
minutes.
    The gentlelady from Georgia is recognized.
    Mrs. McBath. Thank you, Mr. Chairman.
    And thank you, Director Mueller. Your investigations of the 
Russian attack on our democracy and of obstruction of justice 
were extraordinarily productive. And under 2 years, you charged 
at least 37 people or entities with crimes. You convicted seven 
individuals, five of whom were top Trump campaign or White 
House aides. Charges remain pending against more than 2 dozen 
Russian persons or entities and against others.
    Now, let me start with those five Trump campaign 
administration aides that you convicted. Would you agree with 
me that they are Paul Manafort, President Trump's campaign 
manager; Rick Gates, President Trump's deputy campaign manager; 
Michael Flynn, President Trump's former National Security 
Advisor; Michael Cohen, the President's personal attorney; 
George Papadopoulos, President Trump's former campaign foreign 
policy adviser, correct?
    Mr. Mueller. Correct.
    Mrs. McBath. And the sixth Trump associate will face trial 
later this year, correct? And that person would be Roger Stone, 
correct?
    Mr. Mueller. Correct.
    Mrs. McBath. Thank you.
    Mr. Mueller. Well, I'm not certain what you said about 
Stone, but he is in another court system, as I indicated 
before.
    Mrs. McBath. Exactly. He's still under investigation.
    Mr. Mueller. And I do not want to discuss.
    Mrs. McBath. Correct. Thank you.
    And there are many other charges as well, correct?
    Mr. Mueller. Correct.
    Mrs. McBath. So, sir, I just want to thank you so much, in 
my limited time today, for your team, the work that you did, 
and your dedication. In less than 2 years, your team was able 
to uncover an incredible amount of information related to 
Russia's attack on our elections and to obstruction of justice.
    And there is still more that we have to learn. Despite 
facing unfair attacks by the President and even here today, 
your work has been substantive and fair. The work has laid the 
critical foundation for our investigation, and for that, I 
thank you. I thank you.
    And with that, I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from Arizona.
    Mr. Stanton. Thank you.
    Director Mueller, I'm disappointed that some have 
questioned your motives throughout this process, and I want to 
take a moment to remind the American people of who you are and 
your exemplary service to our country.
    You are a Marine. You served in Vietnam and earned a Bronze 
Star and a Purple Heart, correct?
    Mr. Mueller. Correct.
    Mr. Stanton. Which President appointed you to become the 
United States attorney for Massachusetts?
    Mr. Mueller. Which Senator?
    Mr. Stanton. Which President?
    Mr. Mueller. Oh, which President. I think that was 
President Bush.
    Mr. Stanton. According to my notes, it was President Ronald 
Reagan had the honor to do so.
    Under whose----
    Mr. Mueller. My mistake.
    Mr. Stanton. Under whose administration did you serve as 
the assistant attorney general in charge of the DOJ's Criminal 
Division?
    Mr. Mueller. Under which President?
    Mr. Stanton. Yep.
    Mr. Mueller. That would be George Bush I.
    Mr. Stanton. That is correct, President George H.W. Bush.
    After that, you took a job at a prestigious law firm, and 
after only a couple years, you did something extraordinary. You 
left that lucrative position to reenter public service 
prosecuting homicides here in Washington, D.C. Is that correct?
    Mr. Mueller. Correct.
    Mr. Stanton. When you were named Director of the FBI, which 
President first appointed you?
    Mr. Mueller. Bush.
    Mr. Stanton. And the Senate confirmed you with a vote of 98 
to 0, correct?
    Mr. Mueller. Surprising.
    Mr. Stanton. And you were sworn in as Director just one 
week before the September 11th attacks.
    Mr. Mueller. True.
    Mr. Stanton. You helped to protect this Nation against 
another attack. You did such an outstanding job that when your 
10-year term expired, the Senate unanimously voted to extend 
your term for another 2 years, correct?
    Mr. Mueller. True.
    Mr. Stanton. When you were asked in 2017 to take the job as 
special counsel, the President had just fired FBI Director 
James Comey. The Justice Department and the FBI were in 
turmoil. You must have known there would be an extraordinary 
challenge. Why did you accept?
    Mr. Mueller. I'm not going to get into--that's a little bit 
off track. It was a challenge, period.
    Mr. Stanton. Some people have attacked the political 
motivations of your team, even suggested your investigation was 
a witch hunt. When you considered people to join your team, did 
you ever even once ask about their political affiliation?
    Mr. Mueller. Never once.
    Mr. Stanton. In your entire career as a law enforcement 
official, have you ever made a hiring decision based upon a 
person's political affiliation?
    Mr. Mueller. No.
    Mr. Stanton. I'm not surprised----
    Mr. Mueller. And if I might just interject, the 
capabilities that we have shown in the report that's been 
discussed here today was a result of a team of agents and 
lawyers who were absolutely exemplary and were hired because of 
the value they could contribute to getting the job done and 
getting it done expeditiously.
    Mr. Stanton. Sir, you're a patriot. And clear to me in 
reading your report and listening to your testimony today, you 
acted fairly and with restraint. There were circumstances where 
you could have filed charges against other people mentioned in 
the report but you declined. Not every prosecutor does that, 
certainly not one on a witch hunt.
    The attacks made against you and your team intensified 
because your report is damning. And I believe you did uncover 
substantial evidence of high crimes and misdemeanors.
    Let me also say something else that you were right about, 
the only remedy for this situation is for Congress to take 
action.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady from Pennsylvania.
    Ms. Dean. Good morning, Director Mueller. Madeleine Dean.
    Mr. Mueller. Ah, gotcha. Sorry.
    Ms. Dean. Thank you.
    I wanted to ask you about public confusion connected with 
Attorney General Barr's release of your report. I will be 
quoting your March 27 letter.
    Sir, in that letter, and at several other times, did you 
convey to the Attorney General that the, quote, introductions 
and executive summaries of our two-volume report accurately 
summarize this office's work and conclusions, end quote?
    Mr. Mueller. I have to say that the letter itself speaks 
for itself.
    Ms. Dean. And those were your words in that letter.
    Continuing with your letter, you wrote to the Attorney 
General that, quote, the summary letter that the Department 
sent to Congress and released to the public late in the 
afternoon of March 24 did not fully capture the context, 
nature, and substance of this office's work and conclusions, 
end quote. Is that correct?
    Mr. Mueller. Again, I rely on the letter itself for its 
terms.
    Ms. Dean. Thank you.
    What was it about the report's context, nature, substance 
that the Attorney General's letter did not capture?
    Mr. Mueller. I think we captured that in the March 27 
responsive letter.
    Ms. Dean. And this is from the 27th letter. What were some 
of the specifics that you thought----
    Mr. Mueller. I direct you to the letter itself.
    Ms. Dean. Okay. You finished that letter by saying, there 
is now public confusion about critical aspects as a result of 
our investigation. Could you tell us specifically some of the 
public confusion you identified?
    Mr. Mueller. Not generally. Again, I go back to the letter. 
The letters speaks for itself.
    Ms. Dean. And could Attorney General Barr have avoided 
public confusion if he had released your summaries and 
executive introduction and summaries?
    Mr. Mueller. I don't feel comfortable speculating on that.
    Ms. Dean. Shifting to May 30, the Attorney General, in an 
interview with CBS News, said that you could have reached--
quote, you could have reached a decision as to whether it was 
criminal activity, end quote, on the part of the President. Did 
the Attorney General or his staff ever tell you that he thought 
you should make a decision on whether the President engaged in 
criminal activity?
    Mr. Mueller. I'm not going to speak to what the Attorney 
General was thinking or saying.
    Ms. Dean. If the Attorney General had directed you or 
ordered you to make a decision on whether the President engaged 
in criminal activity, would you have so done?
    Mr. Mueller. I can't answer that question in the vacuum.
    Ms. Dean. Director Mueller, again, I thank you for being 
here. I agree with your March 27 letter. There was public 
confusion, and the President took full advantage of that 
confusion by falsely claiming your report found no obstruction.
    Let us be clear, your report did not exonerate the 
President; instead, it provided substantial evidence of 
obstruction of justice leaving Congress to do its duty. We 
shall not shrink from that duty.
    I yield back.
    Chairman Nadler. The gentlelady yields back. The----
    Mr. Johnson of Louisiana. Mr. Chairman, I have a point of 
inquiry, over on your left.
    Chairman Nadler. The gentleman will state his point of 
inquiry.
    Mr. Johnson of Louisiana. Was the point of this hearing to 
get Mr. Mueller to recommended impeachment?
    Chairman Nadler. That is not a fair point of inquiry.
    The gentlelady from Florida is recognized.
    Mr. Johnson of Louisiana. Mr. Chairman?
    Chairman Nadler. The gentlelady from Florida is recognized.
    Ms. Mucarsel-Powell. Director Mueller, thank you so much 
for coming here. You're a patriot.
    I want to refer you now to Volume II, page 158. You wrote 
that, quote, the President's efforts to influence the 
investigation were mostly unsuccessful, but that is largely 
because the persons who surrounded the President declined to 
carry out orders or accede to his request. Is that right?
    Mr. Mueller. That is accurate. That is what we found.
    Ms. Mucarsel-Powell. And you're basically referring to 
senior advisers who disobeyed the President's orders, like 
White House Counsel Don McGahn, former Trump campaign manager 
Corey Lewandowski. Is that right?
    Mr. Mueller. Well, we have not specified the persons 
mentioned.
    Ms. Mucarsel-Powell. Well, in page 158, White House Counsel 
Don McGahn, quote, did not tell the Acting Attorney General 
that the special counsel must be removed but was instead 
prepared to resign over the President's orders.
    You also explained that an attempt to obstruct justice does 
not have to succeed to be a crime, right?
    Mr. Mueller. True.
    Ms. Mucarsel-Powell. Simply attempting to obstruct justice 
can be a crime, correct?
    Mr. Mueller. Yes.
    Ms. Mucarsel-Powell. So even though the President's aides 
refused to carry out his orders to interfere with your 
investigation, that is not a defense to obstruction of justice 
by this President, is it?
    Mr. Mueller. I'm not going to speculate.
    Ms. Mucarsel-Powell. So to reiterate, simply trying to 
obstruct justice can be a crime, correct?
    Mr. Mueller. Yes.
    Ms. Mucarsel-Powell. And you say that the President's 
efforts to influence the investigation were, quote, mostly 
unsuccessful. And that's because not all of his efforts were 
unsuccessful, right?
    Mr. Mueller. Are you reading into what I--what we have 
written in the report?
    Ms. Mucarsel-Powell. I was going to ask you if you could 
just tell me which ones you had in mind as successful when you 
wrote that sentence.
    Mr. Mueller. I'm going to pass on that.
    Ms. Mucarsel-Powell. Yeah. Director Mueller, today, we've 
talked a lot about the separate acts by this President, but you 
also wrote in your report that, quote, the overall pattern of 
the President's conduct towards the investigations can shed 
light on the nature of the President's acts, and the inferences 
can be drawn about his intent, correct?
    Mr. Mueller. Accurate recitation from the report.
    Ms. Mucarsel-Powell. Right. And on page 158 again, I think 
it's important for everyone to note that the President's 
conduct had a significant change when he realized that it was--
the investigations were conducted to investigate his 
obstruction acts.
    So in other words, when the American people are deciding 
whether the President committed obstruction of justice, they 
need to look at all of the President's conduct and overall 
pattern of behavior. Is that correct?
    Mr. Mueller. I don't disagree.
    Ms. Mucarsel-Powell. Thank you. Dr. Mueller--Director 
Mueller--Doctor also, I'll designate that too--I have certainly 
made up my mind about whether we--what we have reviewed today 
meets the elements of obstruction, including whether there was 
corrupt intent. And what is clear is that anyone else, 
including some Members of Congress, would have been charged 
with crimes for these acts. We would not have allowed this 
behavior from any of the previous 44 Presidents. We should not 
allow it now or for the future to protect our democracy. And, 
yes, we will continue to investigate because, as you clearly 
state at the end of your report, no one is above the law.
    I yield back my time.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Texas.
    Ms. Escobar. Director Mueller, you wrote in your report 
that you, quote, determined not to make a traditional 
prosecutorial judgment, end quote. Was that in part because of 
an opinion by the Department of Justice Office of Legal Counsel 
that a sitting President can't be charged with a crime?
    Mr. Mueller. Yes.
    Ms. Escobar. Director Mueller, at your May 29, 2019, press 
conference, you explained that, quote, the opinion says that 
the Constitution requires a process other than the criminal 
justice system to formally accuse a sitting President of 
wrongdoing, end quote. That process other than the criminal 
justice system for accusing a President of wrongdoing, is that 
impeachment?
    Mr. Mueller. I'm not going to comment on that.
    Ms. Escobar. In your report, you also wrote that you did 
not want to, quote, potentially preempt constitutional 
processes for addressing Presidential misconduct, end quote. 
For the nonlawyers in the room, what did you mean by, quote, 
potentially preempt constitutional processes?
    Mr. Mueller. I'm not going to try to explain that.
    Ms. Escobar. That actually is coming from page 1 of Volume 
II. In the footnote is the reference to this. What are those 
constitutional processes?
    Mr. Mueller. I think I heard you mention at least one.
    Ms. Escobar. Impeachment, correct?
    Mr. Mueller. I'm not going to comment.
    Ms. Escobar. Okay. That is one of the constitutional 
processes listed in the report in the footnote in Volume II.
    Your report documents the many ways the President sought to 
interfere with your investigation. And you state in your report 
on page 10, Volume II, that with a--interfering with a 
congressional inquiry or investigation with corrupt intent can 
also constitute obstruction of justice.
    Mr. Mueller. True.
    Ms. Escobar. Well, the President has told us that he 
intends to fight all the subpoenas. His continued efforts to 
interfere with investigations of his potential misconduct 
certainly reinforce the importance of the process the 
Constitution requires to, quote, formally accuse a sitting 
President of wrongdoing, as you cited in the report.
    And in this--and this hearing has been very helpful to this 
committee as it exercises its constitutional duty to determine 
whether to recommend articles of impeachment against the 
President.
    I agree with you, Director Mueller, that we all have a 
vital role in holding this President accountable for his 
actions. More than that, I believe we in Congress have a duty 
to demand accountability and safeguard one of our Nation's 
highest principles that no one is above the law.
    From everything that I have heard you say here today, it's 
clear that anyone else would have been prosecuted based on the 
evidence available in your report. It now falls on us to hold 
President Trump accountable. Thank you for being here.
    Chairman, I yield back.
    Mr. Collins. Mr. Chairman.
    Chairman Nadler. The gentlelady yields back.
    Mr. Collins. Just one point of personal privilege.
    Chairman Nadler. Point of personal privilege.
    Mr. Collins. I just want to thank the chairman. We did get 
in our time. After this was first developed to us, we did both 
get in time. Our side got our 5 minutes in.
    Also, Mr. Mueller, thank you for being here, and I join the 
chairman in thanking you for being here.
    Chairman Nadler. Thank you.
    Director Mueller, we thank you for attending today's 
hearing.
    Before we conclude, I ask everyone to please remain seated 
and quiet while the witness exits the room.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And without objection, the hearing is now adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
</pre></body></html>
